                      art




   SUMMARY REPORT ON THE AUDIT OF DEFENSE BASE
REALIGNMENT AND CLOSURE CONSTRUCTION BUDGET DATA
               FOR FYs 1997 AND 1998



Report No. 98-175                         July 2, 1998




              Office of the Inspector General
                  Department of Defense
                              INSPECTOR      GENERAL
                              DEPARTMENT    OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA  22202




                                                                              July 2, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                 AND TECHNOLOGY
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               SECRETARY OF THE ARMY
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENE&U.., DEPARTMENT OF THE ARMY

SUBJECT: Summary Report on the Audit of Defense Base Realignment and
         Closure Construction Budget Data for FYs 1997 and 1998
         (Report No. 98- 175)

      We are providing this audit report for information and use. We considered
management comments on a draft of this report when preparing the final report.

        Comments on a draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, additional comments are not
required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Wayne K. Million, at (703) 604-93 12 (DSN 664-93 12) or
Mr. Michael A. DiRenzo, at (703) 604-93 14 (DSN 664-93 14). See Appendix I for the
report distribution. The audit team members are listed inside the back cover.




                                          Robert fLieberman
                                       Assistant Inspector General
                                               for Auditing
                           Office of the Inspector General, DOD
Report No. 98-175                                                            July 2,199s
   (ProjectNo.   7CG-5002.2 1)

               Summary Re ort on the Audit of Defense Base
             Realignment an 8 Closure Construction Budget Data
                          for FYs 1997 and 1998

                                  Executive Summary

Introduction. This report results from audits done in response to a requirement in Public
Law 102-190, “National Defense Authorization Act for Fiscal Years 1992 and 1993,”
December 5, 1991. The law directs the Secretary of Defense to ensure that the amount of
the authorization that DOD requested for each military construction project associated
with Defense base realignment and closure (BRAC) does not exceed the original estimated
cost provided to the Commission on Defense Base Realignment and Closure
(the Commission). If the requested budget amounts exceed the original project cost
estimates, Defense is required to explain to Congress the reasons for the differences. The
law also requires the Office of the Inspector General, DOD to review each BRAC military
construction project for which there is a significant difference between the estimates
provided to the Commission and those submitted in the budget.

Since Public Law 102-190 was enacted, we have issued numerous reports, including three
summary reports covering FYs 1992 through 1996 BRAC military construction budget
data. We also issued 63 reports covering FYs 1997 and 1998 BRAC military construction
budget data in response to the requirement. Those 63 Inspector General, DOD reports
discuss our review of 115 projects valued at $744.3 million. Appendix B lists the
Inspector General reports, as well as reports issued by the Military Department audit
organizations on BRAC military construction budget data. This report summarizes the 63
reports for FYs 1997 and 1998.

Audit Objectives.     The overall audit objective was to determine the accuracy of
FYs 1997 and 1998 BRAC military construction budget data. The specific objectives
were to determine whether the proposed projects were valid BRAC requirements, whether
the decision for military construction was supported with required documentation
including an economic analysis, and whether the economic analysis considered existing
facilities. We also assessed the adequacy of the management control program as it applied
to the audit objectives. This report summarizes the results of the specific objectives in
Finding A, and discusses the management control objective in Finding B.

Audit Results.  The accuracy of FYs 1997 and 1998 BRAC military construction budget
data was questionable for 71 of 115 projects we reviewed.

The Military Departments submitted BRAC military construction projects in the FYs 1997
and 1998 military construction budgets based on overstated requirements and unsupported
specifications and costs. As a result, the budget requests for 55 BRAC military
construction projects were overstated by $167.8 million (22.5 percent). Also, funding for
16 other BRAC military construction projects valued at $103.6 million had to be
suspended until further documentation was obtained and submitted (Finding A).
The major commands of the Military Departments did not effectively implement
management control procedures established for the BRAC military construction planning,
programming, and budgeting process. As a result, the management officials responsible
for approving the BRAC military construction projects for programming and budget
action did not have reasonable assurance that projects were complete and accurate
(Finding B).

Implementing the recommendations from the 63 audit reports would result in the design
and construction of appropriately sized facilities and at least $167.8 million of BRAC
military construction funds put to better use. See Appendix C for a listing of the invalid or
partially valid projects from the 63 audit reports where funds could be put to better use.
Strengthening the management controls over the BRAC military construction budget
process should provide more complete and accurate BRAC military construction budgets
for the Military Departments.

Summary of Recommendations.          The 63 previously issued audit reports recommended
that the Military Departments submit revised DD Forms 1391, “Military Construction
Project Data,” to accurately reflect requirements for all BRAC military construction
projects that were overstated or inadequately documented, and to reduce the requested
budget amounts for the projects. The reports also recommended that the Under Secretary
of Defense (Comptroller) place flmds on administrative withhold until accurate DD Forms
1391 were submitted.

We recommend that the Secretaries of the Military Departments and Director, Defense
Logistics Agency require heads of major commands and installations to certify that BRAC
military construction projects are valid, adequately documented, and are either 35percent
design complete or based on the parametric estimation process when submitting project
budget requests.

Management Actions. In response to the 63 reports issued, management generally
concurred with our recommendations and took corrective action to revise the BRAC
military construction project submissions and reduce the budget requests. The Under
Secretary of Defense (Comptroller) placed funds for the projects on administrative
withhold pending resolution of the audit issues. Appendix C shows the status of the
55 projects with questionable costs.

Management     Comments.     The Navy and the Air Force concurred stating that they
agreed that BRAC military construction projects should be valid, documented, and either
3 5-percent design complete or based on the parametric estimation process when project
budget requests are submitted. The Army and the Defense Logistics Agency partially
concurred and a review of their comments indicates that they agreed with the intent of the
recommendation. See Part I for a more detailed discussion of management comments and
Part III for the complete text of management comments.

Audit Response.   As a result of management comments, we revised Appendixes C and D
and some wording throughout the report. We consider management comments to be fully
responsive. Accordingly, no additional comments are required.




                                              ii
Table of Contents

Executive Summary                                                             i



Part I - Audit Results
      Audit Background                                                        2
      Audit Objectives                                                        3
      Finding A. Support for Defense Base Realignment and Closure Military
                  Construction Projects                                       4
      Finding B. Management Controls for Defense Base Realignment and
                  Closure Military Construction Funding Requests             10

Part II - Additional Information
      Appendix A. Audit Process
         Scope                                                               20
        Methodology                                                          20
        Management Control Program                                           21
      Appendi; B . Summary of &ior Coverage                                  23
      Appendix C. Status of Recommended Changes in Project Estimates for
                    Projects Identified as Invalid or Partially Valid        32
      Appendix D. Causes of Invalid and Partially Valid Projects             34
      Appendix E. Comparison of Cost of Base Realignment Actions
                    Computer Model Estimates to Amounts in the FY 1997
                    Budget Submission                                        36
      Appendix F. Comparison of Cost of Base Realignment Actions
                    Computer Model Estimates to Amounts in the FY 1998
                    Budget Submission                                        42
      Appendix G. FYs 1997 and 1998 Base Closure Locations Selected for
                    Audit                                                    47
      Appendix H. Acronyms for Appendixes C, D, E, F, and G                  50
      Appendix I. Report Distribution                                        52

Part III - Management        Comments
      Department of the   Army Comments                                      56
      Department of the   Navy Comments
      Department of the   Air Force Comments                                 2:
      Defense Logistics   Agency Comments                                    61
Part I - Audit Results
Audit Background

    Commission on Defense Base Realignment and Closure. On May 3, 1988, the
    Secretary of Defense chartered the Commission on Defense Base Realignment
    and Closure (the Commission) to recommend military installations for
    realignment and closure. Congress passed Public Law 100-526, “Defense
    Authorization Amendments and Base Closure and Realignment Act,” October 24,
    1988, to enact the Commission’s recommendations.       Public Law 10 l-5 10,
    “Defense Base Closure and Realignment Act of 1990,” November 5,1990,
    reestablished the Commission.    That law established the DOD Base Closure
    Account to fund any necessary facility renovation or military construction
    (MILCON) projects associated with Defense base realignment and closure
    (BRAC). The law also chartered the Commission to meet during calendar years
    199 1, 1993, and 1995 to verify that the process for realigning and closing military
    installations was timely and independent. In addition, the law stipulates that
    BR4C actions must be completed within 6 years after the President transmits the
    recommendations     to Congress.

    Table 1 shows the number of actions recommended by the Commission           each year
    and summarizes the Commission’s estimated costs and net savings.

                                        Table 1
                The Commissions’ Estimated BRAC Costs and Savings
                             (billions of FY 1996 dollars)

                                                         Recurring
                        BRAC Actions           Closure    Annual          Total
                    Realignments Closures       Costs     Savings       Savings*
              1988        86        59         $ 2.2       $0.7          $ 6.8
              1991        34        48            4.0        1.6           15.8
              1993       130       45             6.9        1.9           15.7
              1995       104      28              3.6      1.6             19 3
              Total      354      180          $16.7       $5.8          L
                                                                         $57.6

      *Net savings after closure costs, measured over 20 years and discounted      to
      present value at 4.2 percent.


    Military Department BRAC Cost-Estimating Process. To develop cost
    estimates for the Commission, the Military Departments used the Cost of Base
    Realignment Actions computer model (COBRA). COBRA uses standard cost
    factors to convert the suggested BRAC options into dollar values to provide a way
    to compare options. After the President and Congress approve the BRAC actions,
    DOD realigning activity officials prepare a DD Form 139 1, “FY Military
    Construction Project Data,” for each individual MILCON project required to
    accomplish the realigning actions. COBRA provides cost estimates as a
    realignment and closure package for a particular realigning or closing base. The
    DD Form 1391 provides specific cost estimates for an individual BRAC
    MILCON project.


                                          2
Audit Objectives

     Required Defense Reviews of BRAC Estimates. Public Law 102-l 90,
     “National Defense Authorization Act for Fiscal Years 1992 and 1993,”
     December 5,199 1, states that the Secretary of Defense shall ensure that the
     authorization amount that DOD requested for each MILCON project associated
     with BR4C actions does not exceed the original estimated cost provided to the
     Commission.      If the requested budget amounts exceed the original project cost
     estimates, the Secretary of Defense is required to explain to Congress the reasons
     for the differences. Public Law 102- 190 also states that the Office of the
     Inspector General, DOD, must evaluate significant increases in BRAC MILCON
     project costs between the estimated costs provided to the Commission and those
     submitted in the budget and then report to the congressional Defense committees.

     The overall audit objective was to determine the accuracy of FYs 1997 and 1998
     BFUC military construction budget data. The specific objectives were to
     determine whether the proposed projects were valid BRAC requirements, whether
     the decision for military construction was supported with required documentation
     including an economic analysis, and whether the economic analysis considered
     existing facilities. We also assessed the adequacy of the management control
     program as it applied to the audit objectives. This report summarizes the results
     of the specific objectives in Finding A and discusses the management control
     objective in Finding B. See Appendix A for a discussion of the audit process,
     including a discussion of the limitations and expansion of the overall audit scope.

     Previous Reports. We have issued numerous reports covering FYs 1992 through
     1998 BRAC MILCON budget data. See Appendix B for a listing of the reports
     covering FYs 1997 and 1998 BRAC MILCON budget data, three summary
     reports covering FYs 1992 through 1996 BFUC MILCON budget data, and recent
     related Service audit reports.
           Finding A. Support for Defense Base
           Realignment and Closure Military
           Construction Projects
           The Military Departments submitted BRAC MILCON projects in their
           FYs 1997 and 1998 budget requests that contained overstated
           requirements and were not supported by complete facility specifications
           and costs.

           Overstatements     occurred because major commands:

                   l     did not always revise the scope of BRAC MILCON projects to
           incorporate    changes in work load or force structure and

                   l   improperly included non-BFUC         requirements   in budget
           requests for some projects.

           Facility requirements    were unsupported    or incomplete   because major
           commands:

                   l     did not use existing facility criteria and unit cost factors or

                   l     failed to include required documentation.

           As a result, of 115 BRAC MILCON projects reviewed, valued at
           $744.3 million, 55 projects valued at $353.0 million were overstated by a
           total of $167.8 million. Additionally, funding for 16 other BRAC
           MSILCON projects, valued at $103.6 million, had to be suspended until
           further documentation was obtained and submitted.



Budget Background

    Documented validation of MILCON project requirements by the major commands
    ensures that only needed facilities are constructed. In planning for MILCON,
    Military Department commanding officers and facility planners identify facility
    requirements based on the assigned mission, the condition and use of existing
    facilities, and an analysis of alternatives to new construction. Facility
    requirements and military construction projects comprise the basis for an
    installation’s master plan or capital improvement plan.

    Installation commanders submit the facility requirements to the major command
    responsible for review and approval. The major command approves the MILCON
    project after it determines that the facility requirements are justified and that no
    existing facility is available.

    Military Department regulations state that major commands, as the initial
    approval authority, are responsible for validating the information used to support


                                            4
         Finding A. Support for Defense Base Realignment         and Closure Military
                                                                Construction Projects


    a MILCON project. Also, major commands are required to review project
    documentation to ensure that projects are necessary and fully supported and that
    documentation used to support projects is complete and current throughout the
    planning cycle.


Summary of Audit Results in Previous Reports
    Major commands submitted BRAC MILCON projects that contained
    requirements that were overstated as well as projects that were based on
    unsupported or incomplete specifications and costs. Our audit reports disclosed
    that 71 BRAC MILCON projects, valued at $456.6 million, contained
    questionable costs totaling $2 11.2 million. The questionable costs resulted from
    the following problems.

    Overstated Requirements. Major commands’         project requirements   were
    inaccurate for several reasons.

            Outdated Scope. Major commands did not revise the scope of some
    BRAC MILCON projects to reflect changes in work load or force structure.
    BRAC MILCON costs for 29 projects, valued at $237.5 million, contained
    questionable costs totaling approximately $96.9 million because of overstated
    requirements.

             Non-BRAC Requirements. Overstatements also occurred because major
    commands included projects that were based on requirements not directly
    associated with BRAC. MILCON costs for two projects, valued at about
    $5.5 million, contained questionable costs totaling $5.5 million because of
    non-BRAC requirements being included.

    Unsupported or Incomplete Facility Specifications and Costs. Some facility
    specifications and costs were unsupported or incomplete because major
    commands did not use existing facility criteria and unit cost factors, and lacked
    adequate documentation as required by applicable regulations. BRAC MILCON
    costs for 40 projects, valued at $2 13.6 million, contained $108.8 million of
    questionable costs.

    Project Validation and Resolution. In response to our audit reports,
    management revised the BRAC MILCON project submissions for the projects
    questioned. Table 2 categorizes the questionable aspects of FYs 1997 and 1998
    projects. Of 71 projects, 13 projects totaling $52.5 million were invalid and we
    recommended that they be canceled. Another 42 projects totaling $300.5 million
    were partially valid, but required reduction in scope by approximately $115.2
    million. The remaining 16 projects totaling $103.6 million were determined to be
    valid once adequate documentation was obtained.
Finding A. Support for Defense Base Realignment        and Closure Military
Construction Proiects



                                            Table 2
                           Projects Containing Questionable        Costs

                                           Total                      Partially
                                        Questionable    Invalid        Valid       Valid
                                          Proiects      Projects      Proiects    Proiects
       Overstated/Scope not Revised           29             0            21          8
       Overstated/Non-BRAC                                   2             0          0
       Unsupported or Incomplete              4;           11            21          s
          Total                             71             13              42       16




Overstated Requirements

      Overstatements Due to Outdated Scope. The major commands evaluated
      project justifications in relation to engineering adequacy, but not in relation to
      need. The facility planners or other authorized project personnel at the major
      commands inadequately verified or validated the accuracy of workload data,
      personnel strength, and assigned equipment. In addition, major commands did
      not update project documentation when changes occurred in workload data
      personnel strength, and assigned equipment. Of the 29 overstated projects, 2 1
      projects were partially valid, and 8 projects were valid. Examples of the invalid
      and partially valid projects are discussed below.

              Navy Projects. The Marine Corps overestimated construction budget
      costs for three projects associated with the realignment of four CH-46 helicopter
      squadrons and four CH-53E helicopters to Marine Corps Air Station Camp
      Pendleton, California, resulting from the closure of Marine Corps Air Station
      Camp Tustin, California. The inaccurate cost estimates occurred because the
      Marine Corps did not notify the Office of the Under Secretary of Defense
      (Comptroller) of updated design cost estimates developed by an independent
      architect-engineer firm. The inaccurate estimates also occurred because the
      Marine Corps overstated facility requirements and included non-BRAC
      requirements in the DD Forms 1391. We recommended deleting the non-BRAC
      requirements from the project budget request. The Marine Corps agreed to reduce
      the funding request for the overstated requirements.

               Air Force Projects. The Air Force overestimated requirements for BRAC
      MILCON project DDPF959004, “Numbered Air Force Headquarters,” valued at
      $4.3 million resulting from the closure of Bergstrom Air Reserve Base and the
      realignment of the 10th Air Force Headquarters to Naval Air Station Fort Worth,
      Texas. The Air Force did not consider an existing building that became available
      after the BRAC decision and did not consider using pre-wired workstations
      provided by an Air Force activity. As a result, the Air Force may have overstated
      project cost by $1.9 million, the difference in cost between constructing a new
      building and renovating an existing building, and overstated the project by
      $0.2 million for acquiring pre-wired workstations from another source. We
          Finding A. Support for Defense Base Realignment and Closure Military
                                                          Construction Proiects


     recommended preparing an economic analysis of the use of building 390 for
     permanent 10th Air Force Headquarters. The Air Force concurred with the
     recommendation and removed the pre-wired workstations from the DD Form
     1391 BRAC MILCON budget request.

              Defense Logistics Agency Projects. The Defense Logistics Agency
     (DLA) overestimated non-administrative       facility costs for BRAC MILCON
     projects related to the relocation and realignment of Defense Personnel Support
     Center, Philadelphia, Pennsylvania, and its tenants to the Naval Aviation Supply
     Office, Philadelphia. DLA did not adequately document the requirement to
     construct an expansion of the existing Aviation Supply Office compound fitness
     center. We recommended reducing the budget by $628 thousand. DLA agreed to
     cancel the fitness center project and deleted it from the budget request.

     Overstatements Due to Non-BRAC Requirements. Public Law 101-5 10,
     “Defense Base Closure and Realignment Act of 1990,” November 5,1990,
     requires that only one-time costs of base closure be charged to the DOD Base
     Closure Account. On two projects, we identified non-BRAC requirements that
     were included in BRAC MILCON budget estimates

              Navy Project. Project P-164T, “Fire Station,” valued at $2.6 million,
     was submitted for the construction of a new fire house at the Naval Training
     Center Great Lakes, Illinois, to replace and consolidate two existing fire stations
     built in the 1940s. The fire station was not a valid BRAC requirement. Naval
     officials directed the Naval Facilities Engineering Command (NAVFAC) to
     include the fire station as a BRAC requirement at the Naval Training Center Great
     Lakes. We recommended canceling BRAC funding for the project. The Navy
     concurred and deleted the project from the budget request.

              Air Force Project. Project XUMU963007, “Site Utilities,” valued at $2.9
    million, was submitted for the replacement of all utilities serving the Air
    Education Training Command (AETC), Vandenberg Air Force Base (AFB),
    California. The Air Force incorrectly justified the project because of the
    consolidation of the AETC training mission to Vandenberg AFB. The AETC at
    Vandenberg AFB occupied three buildings prior to BRAC realignment of the
    AETC training missions from Chanute and Lowry AFBs. The consolidated
    training site will consist of those three facilities, plus new facilities on the site
    either already constructed or planned for the future. The planned replacement
    utility systems would not add any new capacity or provide utilities to new
    facilities necessitated by the BRAC. Therefore, the replacement of an existing
    utility is not a valid BRAC requirement. We recommended deleting the project,
    valued at $2.9 million, from the FY 1997 budget. The Air Force provided
    additional documentation to support part of the project and deleted the non-BRAC
    requirements from the budget request.


Unsupported or Incomplete Facility Requirements
    Major commands did not always prepare detailed cost estimates and project
    justifications. Therefore, documentation of facility requirements was sometimes
    unsupported or incomplete. Documentation should have included functions to be


                                          7
Finding A. Support for Defense Base Realignment        and Closure Military
Construction Projects


              Navy Projects. The Navy planned to construct a 34,189~square foot
      medical annex and 193,000-square foot parking structure adjacent to the existing
      hospital. The requirement for the annex was unsupportable because of personnel
      reductions in the Naval Hospital Bremerton area that Naval facility planners did
      not consider in their determinations of space requirements. We recommended
      deleting the project valued at $11 million. The Navy concurred and deleted the
      project from the budget request.

      The Navy did not execute the most efficient and cost-effective option in the
      decision to relocate the Fleet Imaging Center Pacific for project P-524T, “Fleet
      Imaging Center Pacific,” valued at $1.85 million. The Navy based the relocation
      decision on the 1995 BRAC law, which states that only those activities in support
      of family housing may remain on Naval Air Station Barbers Point. The Navy does
      not have an official policy concerning activities remaining on a retained portion of
      an installation that is recommended for closure. Additionally, the Navy has no
      directive requiring the Fleet Imaging Center Pacific to relocate. We recommended
      canceling the project. The Navy concurred and deleted the project from the
      budget request.

              Air Force Project. The Air Force did not develop the required
      documentation for Project PRJY92 1012R1, “Renovate QLA Support Facility,” at
      Wright-Patterson AFB, resulting from the closure of McClellan AFB, including an
      economic analysis to support the decision, project scope, and cost estimate. In
      response to our report, the Air Force decided not to implement the project, valued
      at $2.5 million.


Adequate Documentation and Requirements
      Of the 115 projects we reviewed, valued at $744.3 million; 44 projects, valued at
      $287.7 million, were fully supported and properly planned, programmed, and
      documented at the time of our review.


Service Audits of BRAC Projects
       The Army Audit Agency, Naval Audit Service, and the Air Force Audit Agency
       reviewed some BRAC MILCON projects. Results of those reviews are
       summarized below.

       Army Audit Agency.       The Army Audit Agency reviewed 28 projects valued at
       $3 14 million. The review showed that $237.7 million was adequately supported,
       $20.8 million was valid but not supported, and $55.8 million either was not
       required or was not appropriate for BRAC funding. Inaccurate cost factors, not
       retaining documentation, and not identifying alternatives and preparing economic
       analyses on the alternatives contributed to the unsupported requirements.

       Naval Audit Service. The Naval Audit Service reviewed 28 projects valued at
       $191 million. Of the $191 million, $8.5 million could be put to better use. Of the
       28 projects reviewed, 3 projects were partially invalid, and 25 projects were valid.

                                             8
       ’ Finding A. Support for Defense Base Realignment         and Closure Military
                                                                Construction Projects


    $20.8 million was valid but not supported, and $55.8 million either was not
    required or was not appropriate for BRAC funding. Inaccurate cost factors, not
    retaining documentation, and not identifying alternatives and preparing economic
    analyses on the alternatives contributed to the unsupported requirements.

    Naifal Audit Service. The Naval Audit Service reviewed 28 projects valued at
    $191 million. Of the $191 million, $8.5 million could be put to better use. Of the
    28 projects reviewed, 3 projects were partially invalid, and 25 projects were valid.
    The Naval Audit Service determined that existing Navy guidance did not contain
    adequate management controls necessary to identify inaccurate or incomplete
    project supporting data.

    Air Force Audit Agency. The Air Force Audit Agency reviewed seven projects
    valued at $28 million. All seven projects reviewed were valid and supportable.
    Although installations did not have complete documentation or economic analyses
    needed to support the proposed construction projects, installation personnel were
    completing these requirements at the conclusion of the Air Force Audit Agency
    audits.


Summary of Recommendations
    In the 63 Inspector General, DOD reports summarized in this audit, we
    recommended that the Army, the Navy, the Air Force, and DLA prepare new
    DD Forms 1391 on all projects that had inadequate documentation; and submit
    revised budget requests that would exclude invalid project requirements and cost
    estimates. We recommended that the Under Secretary of Defense (Comptroller)
    withhold funds until revised DD Forms 139 1 with validated requirements were
    submitted. We also recommended that the Military Departments reduce the
    funding allocated to the projects as needed and reprogram the savings to support
    other BRAC requirements. See Appendix C for a list of the invalid and partially
    valid projects and the specific reductions in project costs that were recommended
    as a result of the audit. See Appendix D for a description of causes for each of the
    invalid or partially valid projects.

    The Army Audit Agency recommended that the Army make improvements to the
    existing guidance to enhance the BRAC 1995 process. The Naval Audit Service
    recommended that the Navy reduce the scope of the projects and reprogram the
    funds to other BRAC requirements.


Summary of Management              Comments and Actions
    The Military Departments generally concurred with our recommendations       and
    took corrective action to revise BRAC MILCON project submissions and reduce
    budget requests. The Under Secretary of Defense (Comptroller) adjusted or
    placed funds for the projects on administrative hold pending resolution of the
    audit issues.



                                         9
            Finding B. Management Controls for
            Defense Base Realignment and Closure
            Military Construction Funding Requests
            Of 115 BRAC MILCON projects reviewed, totaling $744.3 million,
            71 projects (62 percent) contained questionable costs totaling
            $211.2 million. That condition was caused by major commands and
            installations not effectively implementing the management control
            procedures established for the BRAC MILCON planning, programming,
            and budgeting process. A contributing factor was the short time frame
            imposed by the base closure process, which resulted in activities preparing
            and submitting BRAC MILCON projects without following all established
            procedures for initial design completion and supporting documentation.
            As a result, management officials responsible for approving BRAC
            MILCON projects for programming and budget action did not have
            reasonable assurance that projects submitted were complete and accurate.



Procedures and Criteria for Military Construction                             Projects

     DOD 7000.14-R, “Financial Management Regulation,” July 1996, establishes the
     basic criteria and procedures to support MILCON authorization and appropriation
     requests. Also, the Under Secretary of Defense (Comptroller) memorandum,
     “Financial Management Policy and Procedures for Base Closure and
     Realignment,” December 21, 1993, established the budget and accounting
     procedures for BRAC funds.



Military Department Guidance for BRAC MILCON

     Each Military Department issued implementing instructions for the MXLCON
     process and supplemental guidance for the BRAC MILCON process.

             Army Guidance.    Army Regulation 415-l 5, “Army Military Construction
     Program Development and Execution,” August 30, 1994, establishes policies and
     procedures for planning Army construction projects other than BRAC projects.

     However, paragraph    1- 1.d. of the regulation states:

                Although this regulation does not govern construction programming
                fhnded under Base Realignment and Closure (BRAC), many of the
                principles and guidelines associated with sound planning, design, and
                construction apply.




                                             10
Finding B. Management       Controls for Defense Base Realignment and Closure
                                       Militarv Construction Funding Reauests


Because of the similarities in the program requirements between BRAC MILCON
and normal MILCON, the Army chose to use the MILCON process described in
Army Regulation 415-l 5 for planning, programming, and budgeting for BRAC
MILCON. It also used DD Form 1391 for documenting and executing BRAC
MILCON projects.

Army Regulation 4 15- 15 requires that project planners support construction cost
estimates with standard or repetitive (historical) costs. The historical cost data
recorded in the Army Programming, Administration, and Execution System are to
be used unless justification for deviating from the standards is documented on the
DD Form 1391.

The District Engineer develops a current working cost estimate for various design
phases (lo-, 35-, 60-, 90-, and loo-percent complete) of a construction project. A
current working estimate is a cost estimate based on detailed architect-engineer
drawings of the building and site plans. The 35-percent design current working
estimate is the first working estimate to contain detail on architect-engineer
requirements.   The 35-percent design estimate is required before the DD Form
1391 is submitted for normal MILCON budgets. However, a 35-percent design
working estimate is not required before submission of the DD Form 139 1 budget
estimate for BRAC MILCON projects.

Army management utilized the Army Audit Agency as an additional control, to
audit all BRAC MILCON requirements needed to implement the 1993 and 1995
Commission recommendations.       Army management established a separate process
to resolve disagreements with the auditors before the Army initiated project
design. The process ensured that suggested actions were fully considered and that
inappropriate projects and projects with inappropriate scopes were not funded
from the BRAC account. The Army Audit Agency stated that installations and
major commands generally followed BRAC MILCON planning guidance;
however, the Army could make improvements in the guidance to enhance the
future BRAC budget process.

        Navy Guidance. The NAVFAC issued “The Installation Planning,
Design, and Management Guide (E-l Guide), June 30,1997, in response to Naval
Audit Service recommendations     to improve procedures and management controls
for MILCON proposals. The E-l Guide is the primary source of facilities
requirements policy and technical guidance to all shore activities. It will replace
paper notices, instructions, and publications, wherever possible, with electronic
information at the desktop. The E-l Guide includes the following Navy guidance
for both MILCON and BRAC MILCON requirements.

NAVFAC Instruction 11010.44E, “Shore Facilities Planning Manual,” October
1990, provides the Navy policy on, and identifies responsibilities and procedures
for, the facilities requirements planning process. The instruction provides
guidance on preparing MILCON project documentation.         The guidance applies to
all Navy and Marine Corps shore activities responsible for the planning and
programming of land and facility use, acquisition, and disposal. The same
guidance applies to BRAC MILCON projects.




                                     11
Finding B. Management Controls for Defense Base Realignment and Closure
Military Construction Funding Requests


      NAVFAC Instruction 110 10.44E requires that major commands (approving
      authorities) review MILCON project documentation to ensure that the projects
      submitted by the requester (user) are for valid requirements and that the
      documentation will justify and support the budget cost estimate. Justification
      should include documentation of the step-by-step process by which the project
      requirement and budget estimate were developed, and the justification should
      stand alone when reviewed by others. The instruction also provides that the
      “major claimant . . . ensure completeness and currency of project documentation
      throughout the planning and programming cycle.”

      In an October 13,1993 memorandum, the Commander, NAVFAC stated that no
      BRAC MILCON project was to proceed beyond the project engineering phase
      (35-percent design) until the Engineering Field Division certified the project ready
      for design completion. During the project-engineering     phase, a study is
      conducted to systematically develop the scope, requirements, and costs for a given
      project. As part of the certification process, the Engineering Field Division must
      review the DD Forms 139 1, to ensure that project planning documents are
      complete, accurate, and sufficient to allow the design to proceed.

      To further emphasize BRAC MILCON controls, on December 14,1993, the
      Commander, NAVFAC issued a memorandum instructing all NAVFAC field
      activities to:
                     identify BRAC Funding as a separate assessable unit for the current
                 &z-year Management Control hogram.           The vulnerability (risk)
                 assessment should be a ‘high’ risk rating due to the nature of the
                 program and the continuous processes evolving within the program.

                Air Force Guidance. The Air Force follows three basic instructions for
      the MILCON process. Air Force Instruction 32-l 021, “Planning and
      Programming of Facility Construction Projects,” May 12, 1994, supersedes Air
      Force Regulation 86-1, “Programming Civil Engineering and Appropriated Fund
      Resources,” September 26, 1986. The instruction describes the detailed
      documentation needed to support MILCON project requirements and the
      estimated MILCON costs. The instruction also requires major commands to use
      the Programming, Design, and Construction Management Information System in
      preparing detailed cost estimates on DD Form 1391, “Military Construction
      Project Data,” in sufficient detail to permit cost validation. Congress approved
      the use of the system to estimate costs for budget requests for MILCON projects.
      The system is designed to generate parametric estimates based on historical costs
      for various types of facilities. The parametric cost estimation process is an
      alternative to developing actual cost estimates that are based on 35-percent
      conventional design methodology.

      The instructions also established facility boards to effectively manage available
      resources, determine priority of customer needs, and provide recommendations
      concerning the use of real property facilities and civil engineering resources. At
      the major command level, the facility boards validate requirements, establish
      priorities, and approve facility programs.




                                              12
    Finding B. Management      Controls for Defense Base Realignment and Closure
                                          Military Construction Funding Requests


    Air Force Instruction 32-l 024, “Standard Facility Requirements,” May 3 1, 1994,
    supersedes Air Force Manual 86-2, “Civil Engineering, Programming, Standard
    Facility Requirements,” May 4, 1987. The instruction establishes the criteria for
    estimating and documenting standard facility mission-essential requirements.

    Air Force Instruction 32-1032, “Planning and Programming of Real Property
    Maintenance Projects Using Appropriated Funds,” May 11, 1994, implements       Air
    Force Policy Directive 32-l 0. The instruction prescribes methods for
    documenting and justifying project requirements and associated costs.

    In March 1995, the Office of the Chief of Staff for Base Realignment and
    Transition issued instructions for preparing BRAC MILCON cost estimates. The
    instructions provided a standard approach that Air Force activities were to use to
    develop and support BRAC MILCON projects that would result in a validated,
    approved program with a level of detail required to support budget requests. If
    Air Force activities use the standard approach along with other Air Force
    instructions, projects should be valid and should contain the level of detail
    required to justify budget requests. The instructions require all BRAC MILCON
    cost estimates to be supported with sufficient information for someone unfamiliar
    with the subject area to be able to reconstruct each step of the cost estimate.



BRAC MILCON Project Support

    Despite the management controls established for the normal MILCON process
    and controls described in the supplemental Military Department guidance for the
    BRAC MILCON process, the Military Departments’ budget requests included
    questionable costs totaling $2 11.2 million on 7 1 BRAC MILCON projects.
    Those numbers represent problems in 62 percent of the 115 BRAC MILCON
    projects we reviewed. It also means that 28 percent of the $744.3 million in costs
    was questionable. In response to our audit reports, the Military Departments
    provided additional documentation to support the costs of the projects that we
    questioned. Based on the updated information, 16 of the 7 1 projects were
    completely valid, but the rationale for the other 55 projects remained flawed. As
    discussed in Finding A, the questionable costs resulted from major commands not
    revising the scope of the MILCON project to incorporate changes in work load or
    force structure, including non-BRAC requirements, and not using or documenting
    the facility criteria or unit cost as required by applicable regulations.



Time Constraints Affect the BRAC MILCON Process

    The short time frame imposed by the base closure process, which results in
    activities preparing and submitting DD Forms 139 1 without allotting sufficient
    time for design and documentation, caused many of the problems we found during
    our audit.




                                        13
Finding B. Management Controls for Defense Base Realignment            and Closure
Military Construction Funding Requests


      Normal MILCON Process. Under normal circumstances, planning and
      programming for MILCON projects can take up to 6 years. As part of that
      process, activities begin planning the MILCON projects 1 year or more before
      design begins. The 3%percent design estimate is required before the DD Form
       1391 is submitted for normal MILCON budgets. Depending on the complexity of
      the project, the preparation of the 35-percent design can take 8 months or longer.
      The 35percent design estimate is the first working estimate to contain detail on
      the architect-engineer requirements. The project scope and cost estimates are
      revised, and the budget costs are adjusted as the design nears loo-percent
      completion.

      BR4C MILCON Process. During the BRAC process, the Military Departments
      must initiate actions to close bases no later than 2 years after the date on which the
      President transmits the report of the Commission to Congress. Also, all closures
      and realignments must be completed no later than the end of the 6-year period
      beginning on the same date. Initial planning and programming begins when the
      Secretary of Defense sends the BRAC recommendations         to the Commission.
      However, installations must develop initial BRAC MILCON project scope and
      cost justifications after the Commission report is issued, which is within 2 to 3
      months of the initial budget submission. That does not allow time for completion
      of many of the construction requirements, including the 35-percent design, to be
      clearly defined at the time the budget is submitted.

      Because of time limitations, major commands and installations responsible for
      developing BRAC MILCON projects did not completely follow established
      MILCON and BRAC MILCON procedures to validate and support project
      requirements and costs. As an example, the Air Force Audit Agency evaluated
      $117 million of BRAC MILCON projects and reported that at 17 audited
      installations, only 2 installations had completed all the required supporting
      documentation by the time the audit fieldwork was complete. The Air Force
      Audit Agency reported that all installations were fully aware of the documentation
      requirements and were either completing or preparing to complete the required
      supporting documentation.

      Navy officials stated that adequate procedures exist to provide an accurate and
      reliable DD Form 139 1. However, Navy officials admitted that as a result of the
      short lead times associated with BRAC projects, all the procedures of NAVFAC
      Instruction 11010.44E may not have been followed.

      The figure below compares the time frames for the planning, programming, and
      budgeting process for normal MlLCON projects with the time frames required for
      the BRAC MILCON projects.




                                           14
     Finding B. Management     Controls for Defense Base Realignment and Closure
                                          Militarv Construction Fundine Reauests




Solutions

     The planning, programming, and budgeting process for BRAC MILCON projects
     must be accomplished in a much shorter time than the process for normal
     MILCON. The shorter time forces planning officials to take shortcuts, in effect
     compromising many of the management controls that the Military Departments
     established for the normal MILCON process, thus increasing the vulnerability of
     BRAC funds to waste. Despite the short time frame, we believe that offkials at
     the major commands of the Military Departments who are responsible for
     requesting and approving funding for BRAC MILCON projects can do a better
     job of planning and programming cost-effective BRAC MILCON projects. The
     Army initiative to use the Army Audit Agency to screen projects before they are
     submitted to the Offke of Secretary of Defense is commendable. However, audit
     resources throughout DOD are limited, and it would be very diffkult to audit
     every DD Form 139 1 as part of the program/budget formulation process.

     The situation is compounded by established funding procedures. The annual
     budget submission for BRAC MILCON funds includes a list of all BRAC
     MILCON projects anticipated to be accomplished based on the closure and
     realignment requirements. Each year, the Military Departments submit a financial
     plan to request allocations of base closure funds. For planned BRAC MILCON

                                        15
Finding B. Management Controls for Defense Base Realignment and Closure
Militarv Construction Funding Requests


      requirements, each project to be executed using requested BRAC funds is
      individually listed on the financial plan. Gur audits showed some BRAC
      MILCON projects are not at 35percent design at the time of budget submission.

      In response to recommendations     contained in our audit report 96-093, “ Summary
      Report on the Audit of Defense Base Realignment and Closure Budget Data For
      FYs 1995 and 1996,” April 3,1996, the Under Secretary of Defense
      (Comptroller) agreed that BRAC MILCON projects should be at least 35percent
      design complete or based on parametric estimation process. DOD 7000.14-R,
      Financial Management Regulation, Volume 2B, Chapter 7, “Budget Presentation
      and Formulation,” July 1996, requires that as a minimum BRAC construction
      projects should be at least 35percent design complete or based on parametric
      estimation processes to be included in the budget submission.

      The audits included in this report found that 62 percent of the BRAC h4ILCON
      project budget requests were invalid or not adequately supported. This continues
      to be a problem indicating that increased management oversight of the BRAC
      MILCON budget process is required.



Recommendations,           Management           Comments, and Audit
Response

      We recommend that the Secretaries of the Military Departments and the
      Director, Defense Logistics Agency require the heads of major commands
      and installations certify that BRAC MILCON projects are valid; and ensure
      that supporting data is accurate, current, and 35percent design complete or
      based on the parametric estimation process when submitting project budget
      requests.

      Army Comments. The Army primarily concurred stating that because the Army
      Audit Agency audits the proposed BRAC projects before the project budget
      requests are submitted, they are accurate and current. The Army supports the
      Office of the Secretary of Defense policy requiring that projects be at least
      35-percent design complete before inclusion in the budget submission.

      Navy Comments. The Navy concurred stating that the Navy will continue to
      submit either the 35-percent design or a parametric estimate on BRAC MILCON
      projects when submitting budget requests.

      Air Force Comments. The Air Force concurred stating that all projects
      submitted in the FY 1999 President’s Budget were at least 35-percent designed.
      Because there are currently no BRAC MILCON projects proposed for FY 2000 or
      2001, the recommendations    will be included in Air Force Guidance when/if
      another round of base closures is authorized.

      Defense Logistics Agency Comments. The Defense Logistics Agency partially
      concurred stating that they fully support the need for certifying that BRAC
      projects, like MILCON projects, are valid, and that supporting data is accurate

                                           16
Finding B. Management    Controls for Defense Base Realignment and Closure
                                    Militarv Construction Funding Reauests


and current. DLA stated that BRAC projects are 3%percent design complete or
based on the parametric estimation process when submitting project budget
requests.

Audit Response. The comments    received from the Army,    Navy, the Air
Force, and DLA are responsive
Part II - Additional Information
Appendix A. Audit Process

Scope

     Limitations and Expansion to Overall Audit Scope. We compared the total
     COBRA cost estimates for each BRAC package with the FYs 1992 through 1997
     (1991 Commission), FYs 1994 through 1999 (1993 Commission) and FYs 1996
     through 2001 (1995 Commission) BRAC MILCON budgets submitted by the
     Military Departments and DLA. See Appendixes E and F for a comparison of the
     BRAC actions related to the FYs 1997 and 1998 BRAC budget submissions.
     Because COBRA develops cost estimates as a BRAC package and not for
     individual BFUC MILCON projects, we did not determine the amount of cost
     increases for each individual BRAC MILCON project. Additionally, because of
     prior audit efforts that determined potential problems with all BRAC MILCON
     projects, our audit objectives included all large FYs 1997 and 1998 BRAC
     MILCON projects.

     DOD-wide Corporate Level Government Performance and Results Act
     (GPRA) Goals. In response to the GPRA, the Department of Defense has
     established 6 DOD-wide corporate level performance objectives and 14 goals for
     meeting these objectives. This report pertains to achievement of the following
     objectives and goals:

             Objective: Fundamentally    reengineer the Department    and achieve a 2 1st
     century infrastructure.

             Goal: Reduce costs while maintaining    required military capabilities
     across all DOD mission areas. (DOD-~).

     General Accounting OffIce High Risk Area. The General Accounting Office
     has identified several high risk areas in the DOD. This report provides coverage
     of the Defense Contract Management high risk area.



Methodology

    Universe and Sample. We reviewed the FYs 1997 and 1998 BRAC MILCON
    budgets, totaling $792.9 million and $473.2 million, respectively, submitted by
    the Military Departments and DLA. We grouped projects by location and
    selected groups of projects that totaled at least $1 million for each location. We
    also reviewed those FY 1996 BRAC MILCON projects that were not included in
    the previous FY 1996 budget submission, but were added as part of the FY 1997
    BRAC MILCON budget package. We selected 115 projects for review. We
    excluded projects that were reviewed by the Military Department audit
    organizations.   See Appendix G for a list of the BRAC MILCON projects
    reviewed.



                                         20
                                                         Appendix A. Audit Process



    We examined the BRAC MILCON budget request, economic analysis, and
    supporting documentation; and interviewed management personnel responsible
    for planning, programming and developing the requirements for each of the 115
    BRAC MILCON projects reviewed.

    Audit Type, Dates, and Standards. We conducted this economy and efficiency
    audit from December 1995 through October 1997, in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DOD. We included such tests of management controls
    considered necessary. We did not use computer-processed   data or statistical
    sampling procedures during the course of the audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.


Management      Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. Specifically, we reviewed
    management control procedures regarding estimating and validating the BRAC
    MILCON projects. We also examined the portion of the management control
    program applicable to validating the accuracy of BR4C MILCON budget
    requirements. We also reviewed the results of any self-evaluations of those
    management controls.

    Adequacy of Management Controls. The audit identified material management
    control weaknesses as defined by DOD Directive 5010.38. See Finding B for a
    discussion of the adequacy of the management controls. A copy of the report will
    be provided to the senior official responsible for management controls in each of
    the Military Departments, DLA, and the Office of the Under Secretary of Defense
    (Comptroller).

    Adequacy of Management’s Self Evaluation. The Army identified BR4C
    funding as an assessable unit. Army management used the Army Audit Agency
    to audit the BRAC MILCON requirements needed to implement the 1993 and
     1995 Commission recommendations.    Results of their audits are discussed in
    finding B of this report.

             The NAVFAC required its field activities to identify “BRAC funding” as
    a separate assessable unit for the current five-year Management Control Program.
    The NAVFAC did not identify the material weakness and relied on audits by the
    Naval Audit Service to evaluate its controls. The Naval Audit Service reported
    that existing Navy guidance did not contain adequate controls to identify
    inaccurate or incomplete project supporting data but was implementing
    procedures to improve internal controls for approving MILCON projects. Navy
    procedures and controls are discussed in finding B of this report.

                                       21
Appendix A. Audit Process



               The Air Force did not identify BRAC MILCON funding as an assessable
      unit and, therefore, did not identify or report the management control weakness
      identified by the audit.

               DLA identified implementation of BRAC 1995 realignment and closure
      plans as an assessable unit. DLA conducted a self-assessment, after issuance of
      the audit reports summarized in this audit report, an issued a report on June 30,
       1997. The DLA self-assessment report stated that existing controls are adequate
      to effectively implement plans.




                                           22
Appendix B.                  Summary of Prior Coverage

          Since 199 1, the Office of the Inspector General, DOD and the Military Department
          audit organizations have issued numerous audit reports that address DOD BRAC
          issues. This appendix lists the Office of the Inspector General, DOD reports, as
          well as reports issued by the Military Department audit organizations on BRAC
          MILCON budget data. Reports prior to FY 1994 are not individually listed
          except for summary reports.



Inspector General, DOD Reports

Report No.                           Report Title                              Date
98-015          Defense Base Realignment and Closure Budget            October 27, 1997
                Data for the Realignment of Undergraduate Pilot
                Training from Reese Air Force Base, Texas, to
                Columbus Air Force Base, Mississippi
97-200          Defense Base Realignment and Closure Budget            July 30, 1997
                Data for the Realignment of Onizuka Air Station,
                California, to Falcon Air Force Base, Colorado
97-191          Defense    Base Realignment and Closure Budget         July 18, 1997
                Data for   the Realignment of Undergraduate Pilot
                Training    from Reese Air Force Base, Texas, to
                Laughlin     Air Force Base, Texas
97-189          Defense Base Realignment and Closure Budget            July 14,1997
                Data for the Realignment of Certain Functions from
                Kelly Air Force Base, Texas, to Brooks Air Force
                Base, Texas
97-l 84         Defense Base Realignment and Closure Budget            July 1,1997
                Data for the Realignment of Naval Surface Warfare
                Center Annapolis, Maryland, to Naval Surface
                Warfare Center Philadelphia, Pennsylvania
97-179          Defense Base Realignment and Closure Budget            June 26,1997
                Data for the Relocation of Deployable Medical
                Systems to Hill Air Force Base, Ogden, Utah
97-169          Defense Base Realignment and Closure Budget            June 19,1997
                Data for Naval Hospital Bremerton, Washington
97-164          Defense Base Realignment and Closure Budget            June 18,1997
                Data for the Realignment of the System Program
                Office from McClellan Air Force Base, California,
                to Wright-Patterson Air Force Base, Ohio




                                              23
Appendix B. Summary of Prior Coverage



Inspector General, DOD Reports (cont’d)

Renort No.                       Report Title                              Date
97-162       Defense Base Realignment and Closure Budget           June 16,1997
             Data for the Relocation of the Fleet Hospital
             Support Office to Cheatham Annex, Williamsburg,
             Virginia
97-161       Defense Base Realignment and Closure Budget           June 13,1997
             Data for the Realignment of Undergraduate Pilot
             Training from Reese Air Force Base, Texas, to
             Vance Air Force Base, Oklahoma
97-149       Defense Base Realignment and Closure Budget           June 2,1997
             Data for Naval Air Station Jacksonville, Florida
97-l 39      Defense Base Realignment and Closure Budget           May 2,1997
             Data for the Realignment of Grissom Air Reserve
             Base, Indiana
97-l 15      Defense Base Realignment and Closure Budget           March 28,1997
             Data for the Realignment of Four Navy Activities
             from Leased Space in Arlington, Virginia, to the
             Naval Security Station, Washington, D.C.
97-l 13      Defense Base Realignment and Closure Budget           March 24,1997
             Data for the Relocation of Public Works Center
             from Naval Training Center San Diego, California,
             to the Taylor Street Annex, San Diego, California
97-109       Defense Base Realignment and Closure Budget           March 14,1997
             Data for Hangar Utility Improvements and the
             Relocation of the F- 14D Aircraft from Naval Air
             Station Miramar, California to Naval Air Station
             Oceana, Virginia Beach, Virginia
97-095       Defense Base Realignment and Closure Budget           February 19,1997
             Data for the Relocation of the Fleet Imaging Center
             Pacific from the Naval Air Station Barbers Point,
             Hawaii, to the Naval Station Pearl Harbor, Hawaii
97-088       Defense Base Realignment and Closure Budget           February 5,1997
             Data for the Construction of an Enlisted Dormitory
             at Buckley Air National Guard Base, Colorado
97-076       Defense Base Realignment and Closure Budget           January 22,1997
             Data for the Relocation of the United States Naval
             Ship Mercy to the Naval Submarine Base San
             Diego, California




                                          24
                                           Appendix    B. Summary of Prior Coverage



Inspector General, DOD Reports (cont’d)

ReDortNo.                       Renort Title                             Date
97-074      Defense Base Realignment and Closure Budget          January 17,1997
            Data for the Relocation of Naval Aviation
            Engineering Services Unit from Marine Corps Air
            Station El Toro, California, to Naval Air Station
            Miramar, California
97-07 1     Defense Base Realignment and Closure Budget          January 151997
            Data for the Relocation of the Carrier Air Wings
            from Naval Air Station Miramar, California, to
            Naval Air Station Lemoore, California
97-069      Defense Base Realignment and Closure Budget          January 14,1997
            Data for the Relocation of the E-2 Maintenance
            Hangar from Naval Air Station Miramar,
            California, to Naval Air Station North Island,
            California
97-048      Defense Base Realignment and Closure Budget          December    13,1996
            Data for the Realignment of the Defense Personnel
            Support Center and Its Tenants to the Naval
            Aviation Supply Office Compound, Philadelphia,
            Pennsylvania
97-046      Defense Base Realignment and Closure Budget          December    13, 1996
            Data for the Closure of Naval Training Center
            Orlando, Florida, and Realignment of Maintenance
            and Storage Facilities to Taft U.S. Army Reserve
            Center, Orlando, Florida
97-042      Defense Base Realignment and Closure Budget          December    lo,1996
            Data for the Utility Reconfiguration at the Naval
            Shipyard, Philadelphia, Pennsylvania
97-013      Defense Base Realignment and Closure Budget          October 30, 1996
            Data for the Construction of an Addition to the
            Chapel Center at Sheppard Air Force Base, Texas
96-235      Defense Base Realignment and Closure Budget          September   30,1996
            Data for the Construction of Family Housing at
            Naval Submarine Base Bangor, Washington
96-234      Defense Base Realignment and Closure Budget          September   30, 1996
            Data for the Construction of Family Housing at
            Naval Air Station Pensacola, Florida
96-233      Defense Base Realignment and Closure Budget          September   30, 1996
            Data for the Relocation of Marine Air Control
            Group-48 from Naval Air Station Glenview,
            Illinois, to Naval Air Station Atlanta, Georgia




                                          25
Appendix     B. Summary of Prior Coverage



Inspector General, DOD Reports (cont’d)

Report No.                            Report Title                            Date
96-223         Defense Base Realignment and Closure Budget           September      18, 1996
               Data for the Construction of Family Housing at
               Altus Air Force Base, Oklahoma
96-222         Defense Base Realignment and Closure Budget           September 22, 1996
               Data for the Construction of Family Housing at
               Naval Air Station Fallon, Nevada
96-220         Defense Base Realignment and Closure Budget           September      13, 1996
               Data for the Closure of Marine Corps Air Station
               Tustin, California, and Realignment of Helicopter
               Squadrons and Aircraft to Marine Corps Air Station
               Camp Pendleton, California
96-218         Quick Reaction Report on Defense Base                 September 4, 1996
               Realignment and Closure Budget Data for the
               Closure of Naval Air Station Barbers Point, Hawaii,
               and Realignment to Marine Corps Base Hawaii
               Kaneohe Bay
96-209         Defense Base Realignment and Closure Budget           August 13,1996
               Data for the Closure of Defense Electronics Supply
               Center Dayton, Ohio, and Realignment to Defense
               Supply Center Columbus, Ohio
96-206         Defense Base Realignment and Closure Budget           August 2, 1996
               Data for the Realignment of Navy and Air Force
               Food Services Training at Lackland Air Force Base,
               Texas
96-204         Defense    Base Realignment and Closure Budget        July 3 1, 1996
               Data for   the Realignment of the Deployment
               Function     for the 10th Mountain Infantry (Light)
               Division    to Fort Drum, New York
96-199         Defense Base Realignment and Closure Budget           July 25, 1996
               Data for the Realignment of the Defense
               Distribution Depot Columbus, Ohio
96-191         Defense Base Realignment and Closure Budget           July 3, 1996
               Data for the Relocation of the Carrier Air Wings
               from Naval Air Station Miramar, California, to
               Naval Air Station Lemoore, California
96-171         Defense Base Realignment and Closure Budget           June 21,1996
               Data for Realigning the Office of the Judge
               Advocate General and the Naval Facilities
               En$eering    Command to the Washington Navy




                                               26
                                            Appendix   B. Summary     of Prior Coverage



Inspector General, DOD Reports (cont’d)

Report No.                       Report Title                               Date
96-170       Defense Base Realignment and Closure Budget            June 19,1996
             Data for the Realignment of Five Navy Activities
             from Leased Space in Arlington, Virginia, to the
             Naval Security Station, Washington, D.C.
96-166       Defense Base Realignment and Closure Budget            June 18,1996
             Data for the Closure of Lowry Air Force Base,
             Colorado, and Realignment to Sheppard Air Force
             Base, Texas
96-165       Defense Base Realignment and Closure Budget            June 17,1996
             Data for the Construction of the Hazardous
             Material Storage Addition to Warehouse 28 at
             Defense Distribution Region West, Tracy,
             California
96-l 58      Defense Base Realignment and Closure Budget            June 11,1996
             Data for the Redirect of the 726th Air Control
             Squadron from Shaw Air Force Base, South
             Carolina, to Mountain Home Air Force Base, Idaho
96-154       Defense Base Realignment and Closure Budget            June lo,1996
             Data for the Realignment of the National Airborne
             Operations Center to Wright-Patterson Air Force
             Base, Ohio
96-147       Defense Base Realignment and Closure Budget            June 6,1996
             Data for the Closure of Naval Training Center
             Orlando, Florida, and Realignment of Maintenance
             and Storage Facilities to Taft U.S. Army Reserve
             Center, Orlando, Florida
96-144       Defense Base Realignment and Closure Budget            June 6,1996
             Data for the Realignment of Grissom Air Reserve
             Base, Indiana
96-142       Defense Base Realignment and Closure Budget            June 5,1996
             Data for the Closure of Bergstrom Air Reserve
             Base, Texas, and Realignment of the 10th Air Force
             Headquarters to Naval Air Station Fort Worth, Joint
             Reserve Base, Texas
96-139       Defense Base Realignment and Closure Budget            June 3,1996
             Data for the Closure of Griffiss Air Force Base and
             Realignment of Rome Laboratory and Northeast
             Air Defense Sector, Rome, New York
96-137       Defense Base Realignment and Closure Budget            May 31,1996
             Data for the Realignment of March Air Force Base,
             Riverside, California



                                          27
Appendix B. Summary of Prior Coverage



Inspector General, DOD Reports (cont’d)

Report No.                       Report Title                            Date
96-136       Defense Base Realignment and Closure Budget          May 31,1996
             Data for the Closure of Gentile Air Force Station,
             Dayton, Ohio, and Realignment of Defense
             Logistics Agency Components to Wright-Patterson
             Air Force Base, Ohio
96-135       Defense Base Realignment and Closure Budget          May 30,1996
             Data for the Fleet Anti-Submarine Warfare
             Training Center Pacific, San Diego, California
96-131       Defense Base Realignment and Closure Budget          May 28,1996
             Data for the Realigning Elements of Headquarters,
             vLpdment     of the Navy, to the Washington Navy

96-128       Defense Base Realignment and Closure Budget          May 24,1996
             Data for the Naval Training Center Great Lakes,
             Illinois
96-127       Defense Base Realignment and Closure Budget          May 23, 1996
             Data for the Closure of Roslyn Air National Guard
             Base and Realignments to Stewart Air National
             Guard Base, New York
96-126       Defense Base Realignment and Closure Budget          May 21,1996
             Data for the Realignment of Rickenbacker Air
             National Guard Base, Ohio
96-122       Defense Base Realignment and Closure Budget          May 17,1996
             Data for the Realignment of the Air Education and
             Training Command at Vandenberg Air Force Base,
             California
96-l 19      Defense Base Reahgnment and Closure Budget           May 14,1996
             Data for the Construction of a Multiple Purpose
             Facility at Fort McCoy, Wisconsin
96-l 18      Defense Base Realignment and Closure Budget          May 13,1996
             Data for the Medical and Dental Clinic Expansion
             Project at Naval Weapons Station Charleston,
             South Carolina
96-l 16      Defense Base Realignment and Closure Budget          May lo,1996
             Data for the Relocation of Deployable Medical
             Systems to Hill Air Force Base, Ogden, Utah
96-l 12      Defense Base Realignment and Closure Budget          May 7,1996
             Data for the Closure of Naval Air Station Cecil
             Field, Florida, and Realignment of the Aviation
             Physiology Training Unit to Naval Air Station
             Jacksonville, Florida



                                          28
                                            Appendix B. Summary of Prior Coverage



Inspector General, DOD Reports (cont’d)

Report No.                       Report Title                             Date
96-l 10      Defense Base Realignment and Closure Budget          May 7,1996
             Data for the Realignment of the 30 1st Rescue
             Squadron, Air Force Reserve, from Homestead Air
             Force Base, Florida, to Patrick Air Force Base,
             Florida
96-108       Defense Base Realignment and Closure Budget          May 6,1996
             Data for the Naval Shipyard, Philadelphia,
             Pennsylvania.
96-104       Defense Base Realignment and Closure Budget          April 26,1996
             Data for the Construction of the Overwater Antenna
             Test Range Facility at Newport, Rhode Island
96-101       Defense Base Realignment and Closure Budget          April 26,1996
             Data for the Closure of Naval Air Station Barbers
             Point, Hawaii, and Realignment of P-3 Aircraft
             Squadrons to Naval Air Station Whidbey Island,
             Washington
96-093       Summary Report on the Audit of Defense Base          April 3,1996
             Realignment and Closure Budget Data for FYs
             1995and1996
94-040       Summary Report on the Audit of Defense Base          February 14,1994
             Closure and Realignment Budget Data for FYs
             1993-1994
93-100       Summary Report on the Audit of Defense Base          May 25,1993
             Closure and Realignment Budget Data for Fiscal
             Years 1992 and 1993


Army Audit Agency Reports

AA97-227     Base Realignment and Closure 1995 Construction       June 30,1997
             Requirements - Headquarters 6th U.S. Atmy
             Recruiting Brigade, Nellis Air Force Base
AA 97-226    Base Realignment and Closure 1995 Construction       June 30,1997
             Requirements 5th Readiness Group, Travis Air
             Force Base, California
AA 97-l 40   Base Realignment and Closure 1995 Construction       March 11,1997
             Requirements, U.S. Army Medical Equipment and
             Optical School, Sheppard Air Force Base, Wichita
             Falls, Texas




                                          29
Appendix B. Summary of Prior Coverage



Army Audit Agency Reports (cont’d)

Report No.                      Report Title                            Date
AA 96-287    Base Realignment and Closure 1995 Construction     September 30, 1996
             Requirements, U.S. Army Aviation and Troop
             Command, Fort Monmouth, New Jersey
AA 96-311    Base Realignment and Closure 1995 Construction     September 30, 1996
             Requirements, Letterkenny Army Depot,
             Chambersburg, Pennsylvania
AA 96-200    Base Realignment and Closure 1995 Construction     August 26,1996
             Requirements, Fort Carson, Colorado
iL4 96-072   Base Realignment and Closure 1995 Construction     August 20,1996
             Requirements, Fort Lewis, Washington
A4 96-259    Base Realignment and Closure 1995 Construction     August 19,1996
             Requirements, Fort Belvoir, Virginia
AA 96-134    Base Realignment and Closure 1995 Construction     May lo,1996
             Requirements, Fort Detrick
AA 96-133    Base Realignment and Closure 1995 Construction     April 16,1996
             Requirements, Fort George G. Meade
AA 96-165    Base Realignment and Closure 1995 Construction     April lo,1996
             Requirements, U.S. Army Training Center and Fort
             Jackson
AA 96-146    Base Realignment and Closure 1995 Construction     April 5, 1996
             Requirements, Fort Huachuca, Arizona
AA 96-123    Base Realignment and Closure 1995 Construction     March 25,1996
             Requirements, McAlester Army Ammunition Plant
AA 96-080    Base Realignment and Closure 1995 Construction     March 5,1996
             Requirements, U.S. Army Engineer Center and Fort
             Leonard Wood, Missouri
AA 96-097    Base Realignment and Closure 1995 Construction     February 14,1996
             Requirements, U.S. Army Alaska
AA 96-095    Base Realignment and Closure 1995 Construction     February 12,1996
             Requirements, Walter Reed Army Medical Center,
             Washington, DC
AA 96-009    Base Realignment and Closure 1995 Construction     November   13,1995
             Requirements, Anniston Army Depot, An&ton,
             Alabama




                                         30
                                                Appendix B. Summary of Prior Coverage



Naval Audit Service Reports

Reoort No.                           Report Title                          Date
004-97       Fiscal Year 1998 Military Construction Projects       October 18, 1996
             Stemming From Decisions of the 1993 and 1995
             Base Closure and Realignment Commissions
029-96       Fiscal Years 1996 and 1997 Military Construction      February 27,1996
             Projects Stemming From Decisions of the 1995
             Base Closure and Realignment Commission
072-95       Fiscal Year 1997 Military Construction Projects       September   29, 1995
             Stemming From Decisions of the 1993 Base
             Closure and Realignment Commission


Air Force Audit Agency Report

96052028     Military Construction     Requirements Associated     July 25, 1996
             with the Realignment      and Closure of Kelly and
             McClellan AFBs




                                              31
Appendix C. Recommended Changes in Project
Estimates for Projects Identified as Invalid or
Partially Valid
                                              Amount of      Recommended Amount of Change
                                             Estimate on      Invalid        Partially Valid
                                 Project    DD Form 1391      Proiects            Proiects
Project Location                 Number      (thousands)   /thou-zinds)        /thou&ds)

Navy
FASWTC Pacific, San Diego         P-387T     S 1,900            SO                 %910
Fort McCoy                        P-701T       3,500             0                 1,500
Lackland AFB                      P-973u       3,250         3,250                      0
MCAS Pendleton                    P-031T      18,210             0                 7,447
MCAS Pendleton                    P-028T      10,750             0                 2,46 1
MCAS Pendleton                    P-026T      14,320             0                14,320
MCAS Pendleton                    P-518s     38,230              0                 6,014
MCBH Kaneohe Bay                  P-504T       5,100             0                 2,700
MCBH Kaneohe Bay                  P-297T       1,400             0                   590
MCBH Kaneohe Bay                  P-288T       5,100             0                   483
MCBH Kaneohe Bay                  P-268T     38,300              0                 2,400
MCBH Kaneohe Bay                  P-703T       5,100             0                   690
NAS Jacksonville                  P-23 1U      3,000         3,000                     0
NAS Whidbey Island                P-600T       3,200             0                   219
Naval Hospital Bremetton          P-019T     11,000         11,000                     0
Navy Shipyard, Philadelphia       P-597s      13,000             0                13,000
NS Pearl Harbor                   P-524T       1,850         1,850                     0
NSWC Philadelphia                 P-186U       5,700             0                 1,200
NSWC Philadelphia                 P-185U       6,200             0                 3,000
NSY Philadelphia                  P-597s     13,000              0                 2,200
NTC Great Lakes                   P-164T       2,560         2,560                     0
Security Station Washington       P-003T     14,580              0                   623
Taylor Street Annex, San Diego    P-175T       1,800             0                (2,140)
Washington Navy Yard              P-OOlT       2,000       0                       2.000
  Navy Total:                               $223,050       $21,660               S59,617




See Appendix H for Acronyms.




                                             32
 Appendix          C. Recommended       Changes in Project Estimates for Projects Identified as
                                                                     Invalid or Partially Valid



                                                   Amount of        Recommended      Amount of Change
                                                   Estimate on       Invalid              Partially Valid
                                    Project       DD Form 1391       Projects                 Projects
Project Location                    Number         (thousands)    (thousands)              (thousands)
Air Force
Buckley ANGB                   CRWU 95 3050         $8,200         S 8,200                   %        0
Brooks AFB                     CNBC9930OOR           3,900                0                      250
Columbus AFB                   EEPZ973006Rl          1,100                0                   (1,284)
Falcon AFB                     GLEN973023              300             300                          0
Falcon AFB                     GLEN973009              500                0                       116
Fort Drum                      FPBB 96 95 IO           300                0                      300
Grissom ARB                    CTGC 93 9001            640             640                          0
Grissom ARB                    CTGC 93 9001          1,100                0                      369
Grissom ARB                    CTGC 95 9008            340                0                      340
Grissom ARB                    CTGC 95 9019          1,350                0                       194
Grissom ARJ3                   CTGC 95 9019          1,500            1500                          0
Lackland AFB                   MPYJ 95 3260          2,250           2,250                          0
March ARB                      PCZP 95 9004          1,350                0                      201
March ARB                      PCZP 95 9006            400                0                       148
NAS Fort Worth                 DDPF 95 9004          4,300                0                      251
NEADS                          JREZ 95 9632            800               0                         55
Rickenbacker ANGB              NLZG 93 9686          2,000               0                     2,000
Rome Laboratory                JREZ 94 0055          2,550                0                      359
Rome Laboratory                JREZ 94 0056            940               0                       330
Sheppard AFB                   VNVP 93 3025            800               0                       800
Sheppard AFB                   VNVP 95 3004          2,400               0                     4,800
Vandenberg AFB                 XUMU 96 3007          2,900           2,900                          0
Wright-Patterson AFB           PRJY921012Rl          2,500           2.500                    0
  Air Force Total:                                 S42,420        Sl8,290                     SSJ29


Defense Logistics Agency
AS0 Compound                   DPSC to AS0         $19,500             so                      % 628
Hill AFB                       DEPMEDS             $39,400                  0                $39,400
DDRE Columbus                  DDRE BRAC 95.3        3,306                  0                  3,019
DSC Columbus                   93-114.1              6,950                  0                  3,026
Hill AFB                       DDRW DDOU            12,600         12,600                           0
Wright-Patterson AFB           DCMAO Field             297              0                          27
Wright-Patterson AFB           DCMAO Dayton          1,900              0                         153
Wright-Patterson AFB           DAASC                 3,580              0                         150
  Defense Logistics Agency Total:                 S 87,533        $12,600                  S 46,403

    Total:                                        S353,003        $52550                   5115249

     Total Invalid and Partially Valid Projects                                 $167,799




See Appendix H for Acronyms.


                                                   33
Appendix D. Causes of Invalid and Partially
Valid Projects
                                                                   Causes of                    Causes of
                                          Project               Invalid Proiects        Partiallv Valid Proiects
Project Location                         Number            Overstated    Unsupported   Overstated   Unsunpotted

m
FASWTC Pacific, San Diego            P-387T                                                X
Fort McCoy                           P-701T                                                X
Lackland AFB                         P-973u                                   X
MCAS Pendleton                       P-026T                                                               X
MCAS Pendleton                       P-028T                                                X
MCAS Pendleton                       P-03 1T                                               X
MCAS Pendleton                       P-518s                                                X
MCBH Kaneohe Bay                     P-268T                                                X
MCBH Kaneohe Bay                     P-288T                                                X
MCBH Kaneohe Bay                     P-297T                                                X
MCBH Kaneohe Bay                     P-504T                                                X
MCBH Kaneohe Bay                     P-703T                                                X
NAS Jacksonville                     P-231U                                   X
NAS Whidbey Island                   P-600T                                                X
Naval Hospital Bremerton             P-019T                                   X
NSY Philadelphia                     P-597s                                                               X
NS Pearl Harbor                      P-524T                                   X
NSWC Philadelphia                    P-185U                                                              X
NSWC Philadelphia                    P-l 86U                                                             X
NSY Philadelphia                     P-597s                                                              X
NTC Great Lakes                      P-164T                    X
Security Station Washington          P-003T                                                              X
Taylor Street Annex, San Diego       P-175T                                                              X
Washington Navy Yard                 P-OOlT                                                X

Air Force
Brooks AFB                          CNBC993000R                                                          X
Buckley ANGB                        CRWU 95 3050                              X
Columbus AFB                        EEPZ2973 006R 1                                                      X
DDRE, Columbus                      DDRE BRAC95.3                                                        X
Falcon AFB                          GLEN973009                                             X
Falcon AFB                          GLEN973023                                X
Fort Drum                           FPBB 96 95 10                                                        X
Grissom ARB                         CTGC 93 9001                              X
Grissom ARB                         CTGC 93 9001                                                         X
Grissom ARB                         CTGC 95 9008                                                         X
Grissom ARB                         CTGC 95 9019                             X
Grissom ARB                         CTGC 95 9019                                                         X
Lackland AFB                        MPYJ 95 3260                             X
March ARB                           PCZP 95 9004                                                         X
March ARB                           PCZP 95 9006                                           X
NAS Ft. Worth                       DDPF 95 9004                                           X
NEADS                               JREZ 95 9632                                                         X
Rickenbacker ANGB                   NLZG 93 9686                                                         X


See Appendix H for a list of acronyms.

                                                      34
                                   Appendix D. Causes of Invalid and Partially Valid Projects




                                                                 Causes of                    Causes of
                                          Project             Invalid Projects        Partiallv Valid Projects
Proiect Location                         Number          Overstated    Unsupoorted   Overstated   Unsunported
Air Force (cont’d)
Rome Laboratory                      JREZ 94 0056                                        X
Rome Laboratory                      JREZ 94 0055                                        X
Sheppard AFB                         VNVP 93 3025                                        X
Sheppard AFB                         VNVP 95 3004                                        X
Vandenberg AFB                       XUMU963007               X
Wright-Patterson AFB                 DCMAO Field                                                           X
Wright-Patterson AFB                 DAASC                                                                 X
Wright-Patterson AFB                 DCMAO Dayton                                                          X
Wright-Patterson AFB                 PRJY921012Rl                           X


Defense Logistics Aeency
AS0 Compound                         DPSC to AS0                                         X
Hill AFB                             DEPMEDS                                             X
DSC Columbus                         93-l 14.1                                                             X
Hill AFB                             DDRW DDOU                             x            -              -
  Total                                                       2            11           21             21




See Appendix H for a list of acronyms.


                                                    35
Appendix E. Comparison of Cost of Base
Realignment Actions Computer Model Estimates
to Amounts in the FY 1997 Budget Submission

                                   Table E-l. 1991 Commission
                                       (dollars in thousands)


Army

No FY 1997 MILCON Budget Submission for 1991 Commission




No FY 1997 MILCON Budget Submission   for 199 1 Commission


Air Force

                                                        Budget
                                                      Submission                                    Budget
                                        COBRA            FYs                         Percent      Submission
          Installation/Activity          Model        1992-1997       Difference     Change        FY 1997
Bergstrom AFB* , TX                    522,500             S 15.279    S 7,221
Carswell AFB, TX                        20,000                5;987     14,013              ;;
Castle AFB, CA                          69,800              48.770      21,030              30
Chanute AFB, IL                                             551288     ‘5y$           Infinite         2,900
Eaker AFB, AR                            4,70:                                             100             0
England AFB, LA                         20,400               9,65;      10:743              53
George AFB, CA                                              52,586                    Infinite             8
Grissom AFB, IN                         12,50:              13,182     (52a                           6.600
Loring AFB, ME                          15,800                    0     15,800             16:)
Lowry AFB, CO                          188,100             139,357      48.743              26        13,39:
MacDill AFB, FL                          9,400               5,738                          39             0
Mather AFB, CA                                              48,096                    Infinite         2,180
Myrtle Beach AFB, SC                    35,70:              13,059                          64
Norton AFB, CA                                                                                            8
Pease AFB, NH                                    8                8              8            t           0
Program Management                                          42,961     ‘y;j           Infinite          580
Richards-Gebaur ARS, MO                 33,40:              35.275                          (7)
Rickenbacker AGB, OH                    61,500              60;96+        ‘533                        14,15:
Williams AFB, AZ                         5,300               1,200       4,100             77              0
Wurtsmith AFB, MI                       11,100            0             11,100            100     0
 Air Force Total                      $SlO&-KJ            $547,402    Y37502)                     $39,800
  1991 Commission     Totals for
  FY 1997 Budget                      S5lOJOO             SS47,402    S(37f02)                    %39,8OO




*See Appendix H for Acronyms.

                                                     36
       Appendix E. Comparison of Cost of Base Realignment Actions Computer Model
                            Estimates to Amounts in the FY 1997 Budget Submission


                                  Table E-2. 1993 Commission
                                        (dollars in thousands)


Army

No FY 1997 MILCON Budget Submission    for 1993 Commission




                                                        Budget
                                                      Submission                                        Budget
                                          COBRA           FYs                       Percent           Submission
          Installation/Activity            Model       1994-1999       Difference   Change             FY 1997
NAS, Agana                                                                                       0
NAS, Alameda, CA                        *100,75:          $23,59:      S 77,I:                                  x
NADEP, Alameda, CA                        26,810             1,700       25,110             ;:
NRTF, Annapolis, MD                                               0                              0          8
NAS Barbers Point, HI                    727,20:           190,412     536,79:                        115,862
NAS, Cecil Field, FL                     203,923             4,170     199,753             ;:           4,170
NSY, Charleston, SC                                          7,390      (7,390)      Infinite
NS, Charleston, SC                        96,71:            25,903      70,808             73                   8
FISC. Charleston. SC                           0
NAS: Dallas, TX’                          13,584          109,78;       (96,20!)         (70;)          2,OIZ
NAF; Detroit, MI
NRTF. Driver. VA                              33:                  :        33:          100                8
NAS, Clenview, IL                           1,916            27,240     (25,32$       U,32;)            9,100
SEAADSA, Indian Head, MD                        0
NAF, Martmsburg, WV                                              8                                           8
NAS, Memphis, TN                         213,81:          349,112                         (6:)
NS, Mobile, AL                                300                                         100                8
FHO, Niagara Falls, NY                           0                 8          0
NADEP, Norfolk, VA                        29,316             26,705       2,611               8              :
NH, Oakland, CA                           25,437             10,464      14,973
NH. Orlando. FL                           42,697             23,600      19,097            2;               8
NTC, Orlando, FL                         261,454             96,383     165,071            63           2,683
NADEP. Pensacola. FL                      37,891             21,500      16,391            43
FISC, Pkacola, Fi                                0                 0                                         8
NCEL, Port Hueneme, CA                    20,590             20,600                          :
SUBMEPP, Portsmouth, NH                                       1,700                  Infinite                8
WESTDIV NAVFAC, San Bruno, CA                   8
NPWC, San Francisco, CA                                            :                         8               !
NW‘S, Seal Beach, CA                            x                                            0
NS, Staten Island, NY                                       6,16!                    Infinite                8
NS, Treasure Island, CA                    2,26!           36,750
NSY. Mare Island. CA                      33,92 1          42,151                      (I ‘,::j              x
Nava Air Warfari Centers                  47,000           79,155                         (68)
NCCOSC MISE East)                               0          43,400                    Infinite                8
Naval Su&ce Warfar; Centers               12,383           10,300                           17
Naval Undersea Warfare Centers                                                                0             8
Reserve Centers & Readiness Command             8           2,50:                    Infinite
PERA Centers                                1,011           4,729                        (368)               8
MCAS El Toro, CA                                          417,250                    Infinite          91,283
NAF Midwav Island                               8           9,000                    Infinite           3,000
NAS Miram& CA                                              77,181                    Infinite          11,810
NETC Newporf RI                                x             1,000                   Infinite
NTC San Diego. CA                              0           33,563                    Infinite._.        3,40:
National Cap&l Region                    162,880          170,472                           (5)        42,190
Planning, Design & Management                  0          115.412                    Infinite                0
 Navy Total                           %2,062,192      $1,989,281       $72,911                       $285,508




                                                     37
Appendix E. Comparison of Cost of Base Realignment Actions Computer Model
Estimates to Amounts in the FY 1997 Budget Submission



                                                         Budget
                                                       Submission                                       Budget
                                          COBRA           FYs                          Percent        Submission
          Installation/Activity            Model       1994- 1999      Difference      Change          FY 1997


Air Force

Gentile AFS, OH                                                                                  0
Grifflss AFB, NY                        s 46,OOi           $23,95:     S 22,04!                        s3,30:
Homestead AFB, FL                         52,059             20,589      31.470              2:          3,500
KI Sawyer AFB, MI                        106,507            141,838     (3:;;;;)            (336)        7,000
March AFB, CA                            116,410            109,105                                      3,600
Newark AFB, OH                                                              ’      0
O’Hare ARS, IL                                   8                 8                             :           8
USAF Program Management                          ll          28,118     {28,ll:)        Infinite      0
 Air Force Total                        S320,976           $323,605     S(2.629)                      $17,400


Defense Loeistics Aeencv

Defense Electronic  Supply Center        $17,429            $12,329      $5,100              29
Defense Distribution Depot Toole          15,576                          15,576            100              x
Defense Personnel Support Center          63,767             35,14:      28,627                       $20,950
DCMD - west                               10.699              5,700        4.999             t ::    0
 Defense Logistics Agency Total     s    107,471       S     53,169    s 54302                       S 20,950
  1993 Commission      Totals for
  FY 1997 Budget                    S2,490,639         $2,366,055      $124,584                      $323,858




                                                      38
    Appendix       E. Comparison of Cost of Base Realignment Actions Computer Model
                               Estimates to Amounts in the FY 1997 Budget Submission


                                  Table E-3. 1995 Commission
                                      (dollars in thousands)
Army

                                                    Budget
                                                  Submission                                   Budget
                                        COBRA        FYs                      Percent        Submission
         Installation/Activity           Model    1996-200 1     Difference   Change          FY 1997
Aviation Troop Command, MO            $67,994         6 42,700   $25,294             37      s 2,200
Baltimore Publication Center, MD             0
Bayonne Military Ocean Terminal, NJ     29,940          38,OOi                      (2:)           8
Concept Analysis Agency, MD              1,030           7,500                    (628)        7,500
Detroit Arsenal, MI                                      5,900                 Infinite
Fitzsimons Army Medical Center, CO      66,67:          27,600     39,074                      4,65:
Fort Buchanan. Puerto Rico               4,200               0      4,200           1:;
Fort Chatfee, AR                                         5,690                 Infinite            8
Fort Dix, NJ                                 8           3,100                 Infinite            0
Fort Greely, AK                         13,230             580                       96
Fort Holabird, MD                                                                      0           8
Fort Hunter-Liggetf CA                       8           6,72:                 Infinite
Fort Indiantown GaD. PA                                  6,580                 Infinite            8
Fort Lee, VA         ’                       z                                         0           0
Fort McClellan. AL                     183,361         207,50:    (2413;)                    182,300
Fort Meade, MD                               0                                                     0
Fort Pickek VA                          12,375           3,30:      9,075
Fort Richie. MD                         44,388          33,680     10,708            4:
                                                                               Infinite
                                                                                               9,,5:
Fort Totten: NY                                          1,900                                 1,900
Info Systems Software Cntr, VA           6,33:          14,000                    (12;)
Kellv SUDDOI~Cntr. PA                                                                              x
Letterkenny Army Depot, PA                   8               :
Minor Fort Dix                             160             310                     ;;{,            8
Minor FORSCOM                              120               0
Minor Fort Lewis                        10,600          12,900     (2,300)                         x
Oakland Army Base                       14,239                     14,239          1’;;’
Red River Army Depot, TX                                     :                                     8
Savanna Army Depot,                     21,35:          22,250       (89:)             s      22,250
SenecaArmy Depot, NY                                     4,150                 Infinite
Sierra Army Depot, CA                        :           1,500     [%Jj        Infinite            8
Stratford Army Engine Plant, CT
Tri Service Reliance
Army Program Management               3
                                             0
                                                             !
                                                        34,858
                                                                     ’ 0

                                                                  (34.85!,     Infinite
                                                                                        x          0

                                                                                               9.69:
 Army Total                           $476,005        $480,718    $(4,713)                  $239,640




                                                 39
Appendix E. Comparison of Cost of Base Realignment Actions Computer Model
Estimates to Amounts in the FY 1997 Budget Submission




                                                           Budget
                                                         Submission                                          Budget
                                           COBRA            FYs                              Percent       Submission
         Installation/Activit               Model        19962001           Difference       Change         FY 1997
FISC, Charleston, SC                                                                                  0
FISC, Guam                                S 5,0640                      8   $ 5,06:               100             8
FISC, Oakland, CA                              754            $15,400        ‘;$Ei;)            ‘19;;)     $15,400
Long Beach Naval Shipyard, CA              17,683               1,840                                        1,840
MCAS, El Toro!Tustin, CA                   84, I27                            84:127              100
NADEP, Pensacola, FL                                                    :                                         8
NAF Adak, AK                               %        ;          $        0               :
NAF, Detroit, MI                                                                                      :           00
NAS, Agana Guam                            33,3*!               1,22:         32,09!                96            0
NAS~Al&&         CA                                            19,018        (19,OH$          Infinite
NAS Barbers Point. HI                            8                                                    0           8
NAS, Cecil Field, FL                       60,694              31,74:         28,952                48      22,244
NAS, Corpus Christi, TX                     3,927                              3,927               100
NAS, Key West, FL                                                    8                                0          :
NAS, Miramar, CA                                 8             52,363        (52;;;)          Infinite       3,780
NAS, South Weymouth, MA                     6,889               2,500                               64           0
NATSF, Philadelphia, PA                          0                844           (844)         Infinite         844
Naval Activities, Guam                     41,276               1,518         39,758                96
NBL, New Orleans, LA                                                                                              8
Naval Info Sys Mgt Cntr, Arlington, VA          8                   :                   :           8
Naval Shipyard, Philadelphia, PA                 0                  0                               0            :
NAVSEA, Arlington, VA                     149,950             128,340         21,61:               15       13,200
NAWC, Louisville/Indianapolis              38,602                             38,602              100
NAWC, Oreland, PA           ’                   0                      :                            0             :
NAWC. Warminster. PA                        1,270                    951              31:          26
NAESD, Philadelphia, PA                       718                    721                $)         (A)         72:
NBL, New Orleans, LA                             0                                                               0
NCCOSC-East, Norfolk, VA                    2,359                      8        2,359             100
NCCOSC-West, San Diego. CA                       0                     0                                         8
NMRI, Bethesda MD        -                    200                  1,870      (1,67:)            (83;)       1,870
NMSSO. Chesaneake. VA                         781                  3,996      ‘:2$)              ‘;A;)
NPRDC; San Diego, CA                        2,857                                                                 8
NPWC, Guam                                                              :         ’     0                        0
NRC, Washington DC                          6,53:                  4,744        1,786              2:        4,744
NRD, San Diego, CA                            250                                 250             100
NRL, Orlando, FL                                                        :           0                            :
NSG Command, Washington DC                      !                                                     x          0
NSWC, Carderock, MD                         8,000              26,25!        “(t;;;j             (228)      13,250
NSWC, White Oak, MD                                             4,500                         Infinite           0
NTC, Orlando, FL                          149,03;             127,516         211523                         3,464
NTC, San Diego, CA                            646               3,250         (2,60;)            (4::)
NUWC, Keyport, WA                                                                                                 8
NUWC, New London, CT                            8                       :                              8
Oflice of Naval Research, VA                                                            :                         :
SPAWAR Arlington, VA                            8                       :                              8
SRF, Guam                                       0                       0               :              0          :
SUPSHIP, Long Beach, CA
SPAWAR, VA                                      :                    :              :                 8          x
Planning, Design & Management                   0              39,700        (39,700)         Infinite       9,700
 Navy   Total                            $614,929            $468,286       $146,643                       $9 1,057




                                                        40
    Appendix          E. Comparison of Cost of Base Realignment Actions Computer Model
                                  Estimates to Amounts in the FY 1997 Budget Submission



Air Force

                                                      Budget
                                                    Submission                                     Budget
                                         COBRA         FYs                        Percent        Submission
            Installation/Activity         Model     1996-200 1      Difference    Change          FY 1997
Bergstrom ARB, TX                       $4,687           S 5,020        S (33;)          $,      $5,020
Eglin AFB, FL                                                  0
Grand Forks AFB, ND                            8                                         0             :
Grifflss AFB, 485th Engineering, NY         800                 8          SO:         100             0
Griffiss AFB, 10th Light Div, NY         50,870           48,000         2,870                    46,000
Hill AFB, UT         -                                                                      8          0
Homestead AFB. 3Olst Rescue Sauad. FL     6,43;            5,90:           53:                     5,900
Homestead AFB; 726th Air Cntrl,‘FL        5.000                          5,000         10:             0
Kelly AFB, TX                           104;638           94,87:         9,768
Lowry AFB, CO                               417                            417         10:             8
Malmstrom AFB, MN                        18,880           17,40:         1,480           8        11,200
McClellan AFB, CA                        97,497           70,870        26,627
O’Hare ARS, IL                            1,362            2,200          (838)        (&                 :
Onizuka AS, CA/Wurtsmith AFB, MI         27,569           26,160         1,409
Ontario IAP AGS, CA                         694              640                         :           64:
REDCAP, NY                                  700              890          $1           (2;)          890
Reese, AFB, TX                            4,767            4,400                                   1,450
Roslyn AGS, NY                            9,374            6,950       2,424                           0
USAF Program Management               0                   28,288     (28.288)      Intit%.’        5,543
 Air Force Total                      $333,686          %311,588     $22,898                     S76,643


Defense   Logistics     Agency

Defense Depot, Columbus, OH              $ 1,000         $ 287          $ 713
Defense Depot, Ogden, UT                  21,945          24,400        (;4;:’         $1        $21,908
Defense Industrial Supply Cntr, PA         3,385
Defense Depot Memphis, TN                    454                8         ‘454         100                8
DCMD - International
DCMD - South                                  x                 8   2                       8   _--!
 Defense Logistics Agency Total      %   26,784     S     24,687    S    2,097                  S 21.900
  1995 Commission Totals for
    FY 1997 Budget                   S1,451,404     S1285.279       5166,125                    S429J40
   1991,1993 and 1995 Commission
     Totals for FY 1997 Budget       $X,452,243     S&198,736       $253,507                    S792,898




                                                   41
Appendix F. Comparison of Cost of Base
Realignment Actions Computer Model Estimates
to Amounts in the FY 1998 Budget Submission
                                  Table F-l. 1993 Commission
                                      (dollars in thousands)
Army

                                                     Budget
                                                   Submission                                       Budget
                                       COBRA          FYs                        Percent          Submission
          Installation/Activity         Model      1994- 1999     Difference     Change            FY 1998
Letterkenny Army Depot, PA             $27,199          $9,150     $18,049               66
Tooele Army Depot, TX                   10,371                0     10,371              100
Belvoir RDEC*, VA                        4,716            5,308        (592)
Fort Monmouth, NJ                       27,579           29,634      (ZOSS)            “,:j
Vint Hill Farms Station, VA             44,456           32,218     12,238              28
Presidio of San Francisco, CA                                 0                           0
Orlando NTC, FL                              8            3,650      (3,6S:)      Infinite
Army Program Management               0                   8.854      (8.854)      Infinite
 Army Total                           $114$21          $88,814     S25,507




NAS Agana, Guam                                                                               0
NAS, Alameda, CA                      s100,75:         523,S9:      77,16:                                  8
NADEP, Alameda, CA                      26,810           1,700      25,110               ;:
NRTF, Annapolis, MD                                          0            0                   0         !
NAS, Barbers Point, HI                 727,20):        162,911     564,293                         14,969
NAS, Cecil Field, FL                   203,923           3,400     200,523              if          3,400
NSY, Charleston, SC                                      7,390      (7,390)       Infinite
NS, Charleston, SC                      96,71?          25,903      70,808              73                  8
FISC Charleston, SC                          0
NAS, Dallas, TX                         13,584         109,7*;     (96,20:)            (78)                 :
NAF, Detroit, MI
NRTF, Driver, VA                           331:              8           33:           100              :
MCAS El Toro, CA                                       375,657    (;;&;;j         Infinite        49,025
NAS Glenview, IL                         1,91:          26,647                      (129;)        12,007
SEAADSA, Indian Head, MD                                                ’    0
NAF, Martinsburg, WV                        8                8                                          8
NAS, Memphis, TN
NAF Midway Island
NAS Miramar, CA
                                      213,815

                                             :
                                                       349,112
                                                         9,000
                                                        78,28 I
                                                                  (I$;;:]

                                                                   (78:;;’
                                                                                  In   fn$~’
                                                                                  Infinite
                                                                                                        0

                                                                                                    2,60:
NS, Mobile, AL                             300               0                         100
NETC Newport, RI                                         1,000       (LOO;)       Infinite              :
FHO, Niagara Falls, NY                        8                                           0
NADEP, Norfolk, VA                      29,3 16         17,70:      11,616                          5,10:
NH, Oakland, CA                         25,437          11,359      14,078               is        11,359
NH, Orlando, FL                         42,697          23,600      19,097               4s
NTC, Orlando, FL                       261,454          96,400     165,054                          2,70:
NADEP, Pensacola, FL                    37,891          21,500      16,391               46:
FISC, Pensacola, FL                                                                                     8
NCEL, Port Hueneme, CA                  2O,S9:          20,6Oi          (1:)              :             0
SUBMEPP, Portsmouth, NH                                  1,700       (L77)        Infinite
WESTDIV NAVFAC, San Bruno, CA                :                                            0             :
NTC San Diego, CA                            0          33,31;     (33,312)       Infinite          5,349


*See Appendix H for Acronyms.

                                                  42
       Appendix F. Comparison of Cost Base Realignment Actions Computer Model
                         Estimates to Amounts in the FY 1998 Budget Submission



Navv (cont’d]

                                                          Budget
                                                        Submission                                 Budget
                                        COBRA              FYs                    Percent        Submission
         Installation/Activity           Model          1994-1999    Difference   Change          FY 1998
NPWC, San Francisco, CA                                                     8               8              0
NWS, Seal Beach, CA                           8                 8
NS, Staten Island, NY                         0             6,160      (6,160)     Infinite                8
NS, Treasure Island, CA                   2,261            36,750     (3,$#;{
NSY, Mare Island, CA                     33,921            35,596                   (‘p5::j                8
NAVAL Air Warfare Centers                47;ooo            79,155     &E]
NCCOSC fNISE East1                            0            43,400      21083       Inti~Z)
                                                                                         17                8
NAVAL Surface Warfare Centers            12,383            10,300
Naval Undersea Warfare Centers                                  0                          0               8
Reserve Centers & Readiness Command            8            2,500                  Infinite
PERA Centers                              I,01 1            4,729      (51592)
                                                                       r:~:~]         (368)         1,000:
National Capital Region                 162,880           168,472
Planning, Design, % Management                 0          225,936    (225,936)     Inti&)                  0
 Navy Total                           2,062,192     %2,013,549       $48,643                     $107,509


Air Force

No FY 1998 MILCON Budget Submission for the 1993 Commission

Defense Lo&tics     Agency

No FY 1998 MILCON Budget Submission for the 1993 Commission

  1993 Commission Totals
   for FY 1998 Budget                 2,176,513     $2,102,363       $74,150                    $111,159




                                                   43
Appendix F. Comparison of Cost Base Realignment Actions Computer Model
Estimates to Amounts in the FY 1998 Budget Submission


                                   Table F-2. 1995 Commission
                                         (dollars in thousands)
Army

                                                       Budget
                                                     Submission                                 Budget
                                           COBRA        FYs                    Percent        Submission
          Installation/Activitv             Model    1996-2001    Difference   Change          FY 1998
Aviation Troop Command, MO               $ 67,994     S 42,700    S 25,294            37
Baltimore Publication Center, MD                                                       0            8
Bayonne Military Ocean Terminal, NJ        29,94:       20,47:       9,46:                     15,800
Concept Analysis Agency, MD                 1,030        7,500                     (6::)          487
Detroit Arsenal, Ml                                      5,900      [%;         Infinite        5,900
Fitzsimons Army Medical Cntr, CO           66,67:       24,750      411924            63       14,795
Fort Buchanan, Puerto Rico                  4,200                    4,200           100            0
Fort Chaffee, AR                                         5,20:                  Infinite        4,862
Fort Dix. NJ                                    x        3,100      $%$         Infinite
Fort G&y, AK                               13,230          600      121630            95          60:
Fort Holabird. MD
Fort Hunter-L&get& CA                           8            :            :              8          x
Fort Indiantown Gap, PA
Fort Lee, VA                                    :            x            :            8            8
Fort McClellan. AL                        183,361      207,800     (24,43;)          (1;)      34,254
Fort Meade, MD
Fort Pickett VA                            12,37!        3,1:        9,275            75        3,10:
Fort Richie,’ MD                           44,388       35,750       8,638            19        1,092
Fort Totten, NY                                          1,950                  Infinite        1,950
Info Systems Software Center, VA            6,33:        8,650      {:q              (3;)       5,890
Kelly Support Center, PA                                      0       ’ 0
Letterkenny Army Depot, PA                      8                         0           0             8
Minor Fort Dix. NJ                            160            :          160         100
Minor FORSCGM                                 120            0          120         100             8
Minor Fort Lewis, WA                       10,600       13,375      (2,775)         0;)        12,758
Oakland Army Base, CA                      14,239        2,200      12,039                      2,200
Red River Army Depot, TX                                     0                                      0
Savanna Army Depot, IL                     21,35:       22,250         (89;)                    1,319
Seneca Army Depot, NY                                    2,950      (2,950)     1nflnF          1,550
Sierra Army Depot, CA                           8        1,500      ( 1,50;1    Infinite        1,500
Stratford Army Engine Plant, CT
Tri Service Reliance                            :            8                         8            :
Army Program Management                         0       36,858    (36.85:)      Infinite        3,750
Army Total                               $476,005    !IU6,607     %29$98                     $111,807


Navy
NAFAdak,AK
NAS, Agana Guam                           S33,31!      s 1,22:    6 32,09;            9:            8
NAS; Aiameda, CA                                        19,900                  Infinite
NSWC. Carderock. MD                         8,OO:       24,460     [t%j            (2060)      S6,18i
Naval Info Sys Mgt Cntr, Arlington, VA                                 ’ 0
NRC, Arlington, VA                              x        4,74:       (4,744)    Infinite            8
NAVSEA, Arlington, VA                     149,950      171,700     (21,75;)          (1;)      86,488
Office of Naval Research, VA                                                                        0
NSWC, Arlington, VA                             x            :            0            0            0
         Appendix F. Comparison of Cost Base Realignment Actions Computer Model
                            Estimates to Amounts in the FY 1998 Budget Submission



Navv (cont’d)

                                                           Budget
                                                         Submission                                         Budget
                                           COBRA            FYs                            Percent        Submission
          Installation/Activitv             Model        1996-2001          Difference     Change          FY 1998
NMRI, Bethesda, MD                            200                1,870        (1,670)          ‘84;’                0
NAS, Cecil Field, FL                       60,694               42,988        17,706                       26,580
NMSSO, Chesapeake, VA                         781                3,996        (3,21;)          (41;)
NAF Detroit, MI                                                       0                                          8
MCAS, El Toro, CA                          84,12!:               1,410        82,717              98         1,410
FISC, Guam                                  5,064                     0        5,064             100
Naval Activities, Guam                     41,276                2,100        39,176              95          60:
NPWC, Guam                                                            0
SRF, Guam                                           8                                  x             x              :
NAWC, Aircraft Div, Indianapolis,   IN                                  8
NAS, Key West, FL                                8                                     8             8              z
NUWC, Keyport, WA                                0                      8
Naval Shipyard, Long Beach, CA             17,683                             17,68!             10:                x
NSWC, Louisville, KY                       38,602                    8        38,602             100
NAS, Miramar, CA                                               77,550        (77,55;1       Infinite       31,43:
NUWC, New London, CT                             8
NBL, New Orleans, LA                             0                      :           0              8                8
NISE-East Coast Det                         2,359                              2,359             100
FISC, Oakland, CA                             754              24,26!        (23,50;)         (311;’        3,908
NAWC, Oreland, PA
NRL, Orlando, FL                                8                   :                               0               8
NTC, Orlando, FL                          149,039             127,502         21,53!               14
NADEP, Pensacola, FL                            0                   0                               0               8
NATSF, Philadelphia, PA                                         1,165         &;$           Infinite                0
NAESU, Philadelphia, PA                       71:                 400                             44
Naval Shiuvard, Philadeluhia. PA                                                                    0               x
NIE, San Diego; CA       ’                       8                   8                 8
NPRDC, San Diego, CA                        2,857                5,138        ‘22;;’             (8:)               8
NRD, San Diego, CA                            250                                               100
NTC, San Diego, CA                            646                3,25:        f6OJ             (4:)                 :
NAS South, Weymouth, MA                     6,889                2,500
NAWC, Warminster, PA                        1,270                  951          ‘319              25                x
NCCOSC, Wanninster, PA                                                                              0
NSWC. White Oak. MD                                 :           4,5000        (4,50&        Infinite                :
Stand Alone Naval ‘Center                                           0
Various Locations                                   8                                  8            x               :
Program Management                                             33,*0:        “;8;3          Infinite
NAS Corpus Ckisti                           3,92;                                                100                8
Naval Reserve Center                                                    8       ’      0
FISC-Charleston                                     8                                                8          8
NAS Barbers Point                                                       :              x
NUWC Keyport, WA                                    8                                             8             8
NSG Potomac                                                             :              i          0
Naval Recruiting Command, DC                6,53i                              6,530            100             8
SRF Guam                                            0                   :                         0
SUPSHIP Long Beach                                                      0   2                     0             8
 Navy Total                              S614,929            $J55,407        SS9.522                     $156,591




                                                        45
Appendix F. Comparison of Cost Base Realignment Actions Computer Model
Estimates to Amounts in the FY 1998 Budget Submission



Air Force

                                                              Budget
                                                            Submission                                 Budget
                                             COBRA             FYs                      Percent      Submission
            Installation/Activity             Model         1996-200 1     Difference   Change        FY 1998
Bergstrom ARB, TX                            $4,687           s 5,020         8 (33;)          $’
Ealin AFB. FL                                      0                                                          8
G-i&d Forks AFB, ND                                                    8
Grifftss AFB, 485th Engineering, NY             80X                              8000        10:           x
Griffiss AFB, 10th Light Div. NY             50.870            48,0000         2,870                  $2,000
Hill AFB, UT         -                                                                         x
Homestead AFB, 301 st Rescue Squad, FL        6,43:             5,90:           53:            8           x
Homestead AFB. 726th Air Control. FL          5.000                           5,000          100           0
Kelly AFB, TX                               1041638            41,32(:       63,311           61      13,580
Lowry AFB, CO                                   417                  0          417          100
Malmstrom AFB, MN                            18,880            15,800         3,080           16           8
McClellan AFB, CA                            97,497            59,820        37,677                   27,530
O’Hare ARS, IL                                1,362             2,200          (838)         (Z)           0
Onizuka AS, CA Wurtsmith AFB, MI             27,569            25,160         2,409                   25,160
Ontario IAP AGS, CA                             694               640                          :
REDCAP, NY                                      700               890          (1;:)         (2;)          8
Reese AFB, TX                                 4,767             4,730                                  3,280
Roslyn AGS, NY                                9,374             6,000         3,3:;:           36          0
USAF Program Management                                        26.036       126.036)     infinite      4.157
 Air Force Total                           $333,686         $241,523        $92,163                  $75,707


Defense Logistics Agency

Defense Depot, Columbus, OH                 % 1,000
Defense Depot, Odgen, Utah                  21,945           s50,06:                                 51790:
Defense Industrial Supply Center, PA         3,385
Defense Depot Memphis, TN                       454                    8                                      8
DCMD - International
DCMD - South                                      8                    8                            2
 Defense Logistics Agency Total        S     26,784     S     50,065                                s 17,900
  1995 Commission       Totals for
  FY 1998 Budget                         1,451,404      Sl,293,602         S157.802                 S362.005
   1993 and 19% Commission
    Totals for FV 1998 Budget            3,627,917      S3,395,965         $23 1,952                %473,1&t




                                                       46
Appendix G. FYs 1997 and 1998 Base Closure
Locations Selected for Audit
Losing Base                            MILCON                                                               Report
     Gaining Base                       Project                               Description                   Number
Bergstrom ARB’
     NAS Fort Worth            DDPF 95 9004       Numbered Air Force Headquarters                           96-142
Castle AFB
     Altus AFB                 AGGN 95 4015       Family Housing and Land Purchase                          96-223
Chanute and Lowry AFBs
     Vandenberg AFB            XUMU 96 3007       Site Utilities                                            96-122
DDRE, Depot Columbus
     DDRE, Depot Columbus      DDRE BRAC 95.3     Convert Whse 41/42 to Inactive War Reserve Bulk Whse      96-199
DDRW, Tracy
     DDRW, Tracy               DLA DDRW           Hazardous Material Storage Addition to Warehouse 28       96-165
Defense Depot Ogden
     Hill AFB                  DEPMEDS            General Purpose Warehouse and Outside Storage             97-179
     Hill AFB                  DDRW DDGU          DEPMEDS (Deployable Medical Systems), Relocation          96-l 16
DESC Dayton
     DSC Columbus              93-114.1           Renovate Operations Space                                 96-209
DPSC and Its Tenants
     AS0 Compound              DPSC to AS0        Convert/Reconfigure Facilities for DPSC                   97-048
     AS0 Compound              DPSC to AS0        Convert Facilities for DPSC Tenants                       97-048
     AS0 Compound              DPSC to AS0        Convert Facilities for DPSC Adjacent Tenants              97-048
FASWTC, San Diego
     FASWTC, San Diego         P-387T             Gymnasium, Fleet Anti-Submarine Warfare Training Center   96-135
     FASWTC, San Diego         P-387T             Gymnasium, Fleet Anti-Submarine Warfare Training Center   96-135
FISC Oakland, Annex
     Cheatham Annex            P-029              Cargo Staging Area                                        97-162
     Cheatham Annex            P-028              Warehouse Renovation                                      97-162
Gentile AFS
     Wright-Patterson AFB                  Renovate Building 30030                                          96-136
     Wright-Patterson AFB
     Wright-Patterson AFB
                               Fit!%2Dayton
                               DCMAO Field
                                           Renovate Building 30207
                                           Renovate Building 30030 (Parking Lot)
                                                                                                            96-136
                                                                                                            96-136
Grifftss AFB
     Fort Drum                 WOXG 95 96 13      Vehicle Operations/Heated Parking                         96-204
     Fort Drum                 WOXG 95 9609       RunwaylApron/lnstrument Lighting System                   96-204
     Fort Drum                 FPBB 96 95 10      Fire Station, Add to                                      96-204
    NEADS Facilities           JREZ 95 9632       NEADS Facilities                                          96-139
     Rome Laboratory           JREZ 94 0056       Support Facilities, Alter                                 96-139
     Rome Laboratory           JREZ 94 0055       Consolidated Logistical Facilities, Alter                 96-139
Grissom AFB
     Grissom ARB               CTGC95 9019        Munitions Storage                                         96-144
     Wright-Patterson AFB      ZHTV 94 3204A      National Airborne Gperations Center Complex               96-154
     Grissom ARB               CTGC 95 9008       Vehicle Maintenance                                       96-144
     Grissom ARB               CTGC 93 900 1      Base Boundary Fence/Main Gate                             96-144
Grissom ARB
    Grissom ARB                CTGC 95 9019       Munitions Storage and Small Arms Range                    97-139
    Grissom ARB                CTGC 93 900 1      Base Boundary Fence/Main Gate                             97-139
Homestead AFB
    Patrick AFB                SXHT 95 9002       Para-rescue Training Facility                             96-1 IO
     Patrick AFB               SXHT 95 9011       Miscellaneous Maintenance Shops                           96-I 10
    Patrick AFB                SXHT 95 9004       Corrosion Control/Fuel Cell Maintenance Facility          96-1 IO
Kelly AFB
    Brooks AFB                 CNBC993OOOR        Add to and Alter YAD/Textile Library                      97-189
Leased Space Arlington
    Security Sta. Washington   P-003T             Security Facility Upgrade                                 97-115
Lowry AFB
    BucydANA&;B                CRWU 96 1460       Troop Support Facility                                    97-088
                               MPYJ 95 3260       Technical Training Academic Facilities. Alter             96-206
    LackIand AFB               P-973u             Mess Specialist VP School                                 96-206
    Sheppard AFB               VNVP 93 3025       Chapel Center, Add to                                     97-013
    Sheppard AFB               VNVP 93 3025       Chapel Center, Add to                                     96-166
    Buckley ANGB               CRWU 95 3050       Enlisted Dormitory                                        97-088
    Sheppard AFB               VNVP 94 3006       PMEL                                                      96-166
    Sheppard AFB               VNVP 95 3004       Kitchen and Bakery, Central Preparation                   96-166




‘See Appendix H for Acronyms


                                                     47
Appendix       G. FYs 1997 and 1998 Base Closure Locations Selected for Audit




LosingBase                          MILCON                                                                  Report
   C&ning Base                       Project                             Description                        Number
March AFB
                               PCZP 95 9006    Supply Administration and Communications, Alterations to     96-137
  kE:E
MCAS El Toro
                               PCZP 95 9004    Isolate Utilities and Construct Perimeter Security Fence     96-137

   NAS Miramar                 P-02ou          NAESU Administrative and Training Spaces                     97-074
MCAS Tustin
   MCAS Pendleton              P-029T          Warehouse and Special Storage Facilities                     96-220
   MCAS Pendleton              P-026T          Aircraft Parking Apron                                       96-220
   MCAS Pendleton              P-028T          BEQ Physical Fitness Center                                  96-220
   MCAS Pendleton              P-03 IT         Maintenance Facilities                                       96-220
   MCAS Pendleton              P-518s          Aircraft Maintenance Facilities                              96-220
   MCAS Pendleton              P-027T          Training and Administrative Facility                         96-220
NAS Memphis
   NAS Pensacola               HdO6T           Family Housing                                               96-234
NAS Miiar
   NAS North Island            P-820U          Maintenance Hangar                                           97-069
   NAS Lemoore                 P-186T          Administrative Facility                                      97-07 1
   Ez Emz&eVirginia    Beach   P-165U          Hangar Utility Improvements                                  97-109
                               P-186T          Administrative Office Building                               96-191
Naval Medical Center Oakland
    NSB San Diego              P-l24T          US Naval Ship Mercy Pier Renovation                          97-076
Navy Leased Space
    Naval Security Station     P-003T          Building Renovation                                          96-170
    Washington Navy Yard       P-OO2T          Administrative Building                                      96-171
Navy Shipyard, Philadelphia
    Navy Shipyard, Phil.       P-597s          Utilities Recontigurations (Phase II)                        96-108
National Capital Region
    Washington Navy Yard       P-OOIT          Headquarters Building Renovation                             96-131
NSWC Annapolis
    NSWC Philadelphia          P-185U          Acoustics Research and Development Facility                  97-184
    NSWC Philadelphia          P-l86U          Electrical Power Systems Research and Development Facility   97-184
NSY Philadelphia
    NSY Philadelphia           P-597s          Utility Recontigurations (Phase II)                          97-042
NTC Orlando
    Taft US Army RSV Cntr      P-OOIT          Facilities Modifications                                     96-147
    Tafl US Army RSV Cntr      P-OOlT          Facility Modifications                                       97-046
    NWS Charleston             P-019u          Medical and Dental Clinic Expansion                          96-l 18
McClellan AFB
    Wright-Patterson AFB       PRJY921012Rl    Renovate QLA (System Program Office) Support Facility        97-164
NAS Alameda
    NSB Bangor                 H404T           Family Housing                                               96-235
    NSB Bangor                 H-4051          Family Housing                                               96-235
    NSB Bangor                 H406T           Family Housing                                               96-235
NAS Alameda and NAS Miramar
    NAS Fallon                 HAlOT           Family Housing                                               96-222
NAS Barkers Point
    NAS Whidbey Island         P-6OOT          Ground Support Equipment Facility                            96-101
    MCBH Kaneohe Bay           P-270T          Aircrafl Maintenance Hangar, Alterations to                  96-218
    MCBH Kaneohe Bay           P-297T          Missile Facility                                             96-2 I 8
    NS Pearl Harbor            P-524T          Fleet Imaging Center Pacific                                 97-095
    MCBH Kaneohe Bay           P-269T          Modify Aircraft Wash and Rinse Facility                      96-218
    MCBH Kaneohe Bay           P-508T          Ordnance Facility                                            96-218
    MCBH Kaneohe Bay           P-504T          Utilities Upgrade                                            96-218
    MCBH Kaneohe Bay           P-299T          Tactical Support Facility                                    96-218
    MCBH Kane&e Bay            P-268T          Aircralt Parking Apron                                       96-218
    MCBH Kane&e Bay            P-703T          Hazardous Material and Hazardous Waste Storage               96-218
    MCBH Kaneohe Bay           P-288T          Hazardous Material and Hazardous Waste Storage               96-2 18
    MCBH Kaneohe Bay           P-286T          Bachelor Quarters                                            96-218
    MCBH Kaneohe Bay           P-276T          Training Facility                                            96-218
    MCBH Kaneohe Bay           P-274T          Aviation Suoolv Facilitv                                     96-218
    MCBH Kaneohe Bay           P-272T          Aircraft M&&&nce Facility, Alterations to                    96-218
    MCBH Kaneohe Bay           P-27lT          Building Renovations                                         96-2 18
NAS Cecil Field
    NAS Jacksonville           P-231U          Medical/Dental Clinic Addition                               97-149
    NAS Jacksonville           P-831T          Aviation Physiology Training Unit                            96-1 I2




                                                  48
             Amendix           G. FYs 1997 and 1998 Base Closure Locations Selected for Audit




Losing Base                            MILCON                                                         Report
    Gaining Base                        Project                            Description                Number
NAS Glenview
    Fort McCoy                    P-701T          Equipment Maintenance Facility                      96-l 19
    NAS Atlanta                   P-906T          Marine Reserve Training Facility                    96-233
    NAS Atlanta                   P-330           Reserve Training Building                           96-233
NTC San Diego
    Taylor Street Annex           P-175T          Public Works Shops                                  97-l 13
NTCs Orlando and San Diego
    NTC Great Lakes               P-585T          BEQ Facility Upgrades                               96-128
    NTC Great Lakes               P-1641          Fire Station                                        96-128
    NTC Great Lakes               P-5821          BEQ Renovation                                      96-128
    NTC Great Lakes               P-5881          BEQ Reactivation                                    96-128
    NTC Great Lakes               P-569s          Collocated Dental Research Facilities               96-128
NUWC New London
    NUWC New.port                 P-026s          Overwater Antenna Test Range Facility               96-104
Onizu.u~~~St
                                  GLEN973023      Fitness Facilities                                  97-200
    Falcon AFB                    GLEN973009      Dining Facilities                                   97-200
Reese AFB
    Laughlin AFB                  MxDP973004R2    Engine Staging Facility                             97-191
    Laughlin AFB                  MxDP973003R2    Add to Child Development Center                     97-191
    Columbus AFB                  EEPZ973006Rl    Aircraft Maintenance Hangar                         98-015
    Vance AFB                     XTLF983303      Improvements to Child Development Center            97-161
Rickenbacker ANCB
    Rickenbacker ANGB             NLZG 93 9729    Jet Fuel Storage/Distribution Complex               96-126
    Rickenbacker ANGB             NLZG 93 9686    Alter Base Maintenance Shops Buildings 8851888      96-126
    Rickenbacker ANGB             NLZG 93 9687    Alter Support Shops                                 96-126
    Rickenbacker ANGB             NLZG 93 9690    Alter Fencing and Utilities                         96-126
    Rickenbacker ANGB             NLZG 93 9700    Alter Fuel System Maintenance Dock                  96-126
Roslyn ANGB
    Stewart ANGB                  WHAY 95 9635    Communications Training Complex                     96-127
Shaw AFB (726th ACS)
    Mountain Home AFB             QYZH 97 3020    726th ACS (Air Control Squadron) Complex Phase II   96-158
    Mountain Home AFB             QYZH 96 3030    726th ACS (Air Control Squadron) Complex Phase I    96-158
Various Bases in CA and FL
    Naval Hospital Bremerton      P-019T          Medical Annex                                       97-169




                                                     49
Appendix H. Acronyms for Appendixes C, D, E,
F, and G
AFB            Air Force Base
AFS            Air Force Station
AGE            Aircraft Ground Equipment
AGS            Air Guard Station
ANGB           Air National Guard Base
ARB            Air Reserve Base
ARS            Air Reserve Station
AS             Air Station
AS0            Aviation Supply Office
BEQ            Bachelor Enlisted Quarters
DAASC          Defense Automatic Addressing System Center
DCMAO          Defense Contract Management Area Operations
DCMD           Defense Contract Management District
DDRE           Defense Distribution Region East
DSC            Defense Supply Center
DESC           Defense Electronic Supply Center
DLA            Defense Logistics Agency
DOT            Department of Training
DPSC           Defense Personnel Support Center
FASWTC         Fleet Anti-Submarine Warfare Training Center
FHO            Family Housing Office
FISC           Fleet Industrial Supply Center
FORSCOM        Forces Command
HQ             Headquarters
IAP            International Air Port
JOBS           Jobs Orientation Basic Skills
MCAS           Marine Corps Air Station
MCBH           Marine Corps Base Hangar
NAB            Naval Amphibious Base
NADEP          Naval Aviation Depot
NAESU          Naval Aviation Engineering Support Unit
NAF            Naval Air Facility
NAS            Naval Air Station
NATSF          Naval Aviation Training Shore Facility
NAVFAC         Naval Facilities Engineering Command
NAVSEA         Naval Sea Systems Command
NAWC           Naval Air Warfare Center
NAWC AD        Naval Air Warfare Center Aircraft Division
NBL            Naval Biodynamics Laboratory
NCCOSC         Naval Command Control and Ocean Surveillance Center
NCEL           Naval Civil Engineering Laboratory
NCR            National Capital Region
NEADS          Northeast Air Defense Sector
NETC           Naval Education and Training Center
NH             Naval Hospital
NIE            Naval In-Service Engineering
NISE           Naval In-Service East
NMRI           Naval Medical Research Institute
NMSSO          Naval Management Systems Support Office
NPRDC          Naval Personnel Research & Development Center

                            50
                 Appendix H. Acronyms for Appendixes       C, D, E, F, and G



NPWC              Naval Public Works Center
NRC               Naval Reserve Center
                  Naval Recruiting District
%                 Naval Research Laboratory
NRTF              Naval Radio Transmission Facility
NS                Naval Station
NSB               Naval Submarine Base
NSG               Naval Security Group Command
NSG-NW            Naval Security Group-North West
NSWC              Naval Surface Warfare Center
NSY               Naval Shipyard
NTC               Naval Training Center
NUWC              Naval Undersea Warfare Center
NWS               Naval Weapons Station
PERA              Planning, Estimating, Repair and Alterations (Surface)
PMEL              Precision Measurement Equipment Laboratory
RDEC              Research Development and Engineering Center
REDCAP            Readiness Capability
SEAADSA           Sea Automated Data Systems Activity
SPAWAR            Space & Naval Warfare Systems Command
SRF               Ship Repair Facility
SUBMEPP           Submarine Maintenance Engineering, Planning, and Procurement
SUPSHIP           Supervisor of Shipbuilding, Conversion and Repair
USAF              United States Air Force
WESTDIV NAVFAC    Western Division, Naval Facilities Engineering Command




                                51
Appendix I.               Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
Deputy Under Secretary of Defense (Industrial Affairs & Installations)
   Director, Base Closure and Community Reinvestment
   Director, Base Closure and Transition Office
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Offtcer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)
Assistant to the Secretary of Defense (Public Affairs)


Department of the Army
Secretary of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management    and Comptroller)
Commander, Naval Facilities Engineering Command
   Director of Base Closure
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Assistant Secretary of the Air Force (Installations), Base Transition Division
Auditor General, Department of the Air Force


Unified Commands
Commander In Chief, U.S. Pacific Command, Camp H.M. Smith, HI
Commander, U.S. Special Operations Command, MacDill Air Force Base, FL


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Joint Staff


                                            52
                                                       Appendix I. Report Distribution



Non-Defense        Federal Organizations            and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  Senate Subcommittee on Military Construction, Committee on Appropriations
  House Committee on Appropriations
  House Subcommittee on Military Construction, Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                           53
Part III - Management   Comments
Department of the Army Comments


                                     DEPARTMENT OF THE ARMY
                           ArsslANloNEFoFsr*fFFonlNsr~~uANAcsMEw
                                         woMMyPwrAaoN
                                         h%SHlNGlON CC 2Q31O-OW




    DAIM-BO                                                                      HAY kil   1998




    FOR INSPECTORGENERAL DEPARTMENTOF DEFENSE(AUDITING).
          400 ARMY NAVY DRIVE. ARLINGTON,VA 22202-2884

    SUBJECT: SummaryReporton the Audit of Defense Base Realtpmcnt andClosureBudgetData for
    FYs 1997 and 1998 (ProjectNo. 7CG-5002.21)


                                                 ts on the subjectauditreport.
    1. Enclosed is the Army’s position and comnwzn

    2. Point of contact for this action is BrendaMendoza,DAM-BO. 703-695-8030.




    End
    as                                            MajorGmd.Gs
                                                  AssistantCbiif of Staff
                                                    for bwallation Managanmt

    CFZ
    USAAA (Ms. Rinderknecht)
    DAIM-ZR(Mrs. Moore)

    Coofdiiation:
    DASA(I&H) - Mr. ManueV697-11%
    ASA       - Mr. Anderhold697-508%
    DAM-FDR -Mr. t%ter/6974125




                                                    56
                                                               Department of the Army Comments




                           DODIG DRAFT REPORT
   SUMMARY REPORT ON THE AUDIT OF DEFENSE BASE REALlGNMENT AND CLOSURE
                    BUDGET DATA FOR FYs 1997 AND 1998
                          PROJECT NO. 7CG-5002.21

FINDING A. The




                             MILCON proje& m-icwcd totaling $744.3 million. 71 projects (62
percent) contained questionable costs totaling S21I .2 million. That condition was caused by major
commands and installations not effectively implementing the tnanagenmnt control procedures establisbed
for the BRAC MlLCON planning, progratnming, and budgeting process. A contributing factor was the
shott time frame imposed by the base closure process, which resulted in activities preparing and
submitting BRAC MlLCON projects without following all establiihed procedures for initial design
completion and supporting documentation. As a result, management offtcials responsibk for approving
BRAC MlLCON projects for progamming and budget action did not have masonable assurance that
projects submitted were complete and accurate.

RECOMMENDATION. We mcommmd that the Secretarks of the Military Departments and tbe
Diitor. Defense Logistics Agency requite that heads of major commands and installations certify that
BRAC MECON Projects are valid; and ensure that supporting data are accurate. current, and 35percent
design complete or based on the ppnunnric estimation process when submitting project budset requests.

ARMY POSITION. Partially concur. Although MACOMs and installations currently validate BRAC
projects on DD Form 1391. subsequent audit by AM has shown that many projects submitted for design
were either partially or totally invalid. Without A&% scrutiny. the Army would not have masonable
assurance that supporting data for proposed BlUC ptojects are accurate and curtcnt.

Tbe Army supports OSD policy requiring that projects be at least 35 petcent design complete before
inclusion in the budget submission and does not gqmrally include such projects in Atmy budget
estimates. However, in some cases it has proven more cost effective to include a small MILCON project
at less than 35 percant design in the budget rather than extend optrating costs at a closing installation.

ADDlTlONAL FACTS. APpendices C and D of the dmft report incouectly list consml&onatHiAir
Force Base for Deployable Medical Systems (DEPMEDS) as an Army project. Request that in the final
mport DODlG revise appendices C and D to display DEPMEDS as a Defense Logistics Agency
construction requimment.



                                                     2




                                                  57
Department          of the Navy Comments




     MEMORANDUM    FOR THE DEPARTMENT OF DEFENSE ASSISTANT INSPECTOR
                           GENERAL FOR AUDITING

     SUBJECT:     Summary Report on the Audit of DefsenseBase Realignment
                  and Closure Budget Data for FYs 1997 and 1998
                  (Project No. 7CG-5002.21)

          The Department of Navy's response to Finding B of subject
     draft audit report is attached.




                                 Duncan Holaday
                           Deputy Assistant Secretary
                         (Installations and Facilities)

     Attachment:
     1. DON Response to DODIG Draft Audit Summary Report


     copy to:
     ASN(FMB)
     ASN(FMO-31)
     NAVINGSGEN (02)
     COMNAVFAC (0062)




                                      58
                                         DeDartment of the Naw Comments




                   DEPARTMIMTOFTEENWXRESPONSE
                                   to
                 DODIG DRMT REPORT OF MARCE     6, 1998
                                  On

   SLRMARY   REPORT ON TEE AUDIT OF DEFENSZ BASEREUI-AND
              CLOSURE BDDGET DATA KIR Ra 1997 AND 1998
                      (Project No. 7CG-5002.21)


FINDING B.

RECOMMENDATION. We recommend that the Secretaries of the
Military Departments and the Director, Defense Logistics Agency
require that heads of major commands and instaliations to certify
BRAC MILCON projects are valid, adequately documented, and are
either 35-percent design complete or based on the parametric
estimation process when submitting project budget requests.

DEPARTMENT OF THE NAVY RESPONSE. Concur. The Navy will continue
to submit either the required 35-percent design or a parametric
estimate on BRAC MILCON projects when submitting budget requests
to the Department of Defense.




                                  59
Department                     of the Air Force Comments


                                       DEPARTMENT OF THE AIR FORCE
                                                    WASHINGTON DC
                 I




 0ffm   Of The Assbtant Secmtary
                                                                                                  3 April 1998




         MEMORANDUM             FOR ASSISTANT MSPECTOR GENERAL FOR AUDITING
                                    OFFICE OF THE INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE



          FROM:       SAFlMlIT
                      1660 Air Force Pentagon
                      Washington, DC 20330-1660

          SUBJECT:        Draft Summary Report on the Audit of Defense Base Realignment and Closure
                          Budget Data for FYs 1997 and 1998 (Project No. 7CG-5002.21)

                  This is in reply to your memorandum requesting the Assistant Secretary of the Air Force
          (Financial Management and Comptroller) provide Air Force comments on your finding B of
          subject draft audit report.

                  The report on finding B recommends that the Secretaries of the Military Departments and
          the Director, Defense Logistics Agency require that heads of major commands and installations
          certify that BRAC MILCON projects are valid; and ensure that supporting data is accurate.
          current, and 35 percent design complete or based on the parametric estimation process when
          submitting project budget requests.

                  The Air Force CONCURS. The FY 1999 President’s Budget was submitted to Congress
          in February 1998. All projects included were at least 35% designed. As there are currently no
          BRAC MILCON projects propoxd for FY 2000 or 2001, your recommendation will be included
          in our Air Force Guidance when/if another round of Base Closures is authorized.

                     Our point of contact is Mr. Lester R. Schauer. DSN 227-6559.




                                                                Chief, Base Transition Division

          cc:
          SAFnm
          SAF/FMBIC
          USAFALEC




                                                         60
Defense Logistics Agency Comments



                                      DEFENSE     LOGISTICS     AGENCY
                                                HEADQUARTERS
                                    8725 JOHN J. KINGMAN ROAD. SUITE 2533
                                       FT. BELVOIR. VIRGINIA 22060-6221



IN REPLY
   REFER TO
                                                                                       MAY 88i0
              DDAI



              MEMORANDUM FOR ASSISTANT DMECTOR GENERAL FOR AUDITING
                                    DEPARTMENT OF DEFBNSE
                                    Al-TN: DIRECTOR CONTRACT MANAGBMBNT DIRECTORATE




              SlIBJEcT: Draft Audit Rcpat, “SummaryReport on the Audit of DefenseBase Rclligmnmt and Closure
                         Budget Da!a for FYs 1997and 1998,” Mamh 6.1998 (Project No. 7CG5002.21)




                     EackdtdllltDLA ummaminrcqonsctoyuuqOCStof6MPFh               1998. Plcasccon~act
              Ms. Anne11Williams, DDAI, 767-6274if you have my queho~.




              End




              cc:
                 DLSC-BIP
                 DLSC-B




                                                        61
Defense Logistics Agency Comments




            Subjcet: Summary Report on the Audit of Defense Base Realignment and Closure
                      Budget Data for FYs 1997 and 1998 (Project No. 7CG-5002.21)

            Finding A: No comrncnts are required in response to Finding A, which summa&s the
            findmgsintheearherreports.

           Finding B: The major commands of the Military Departments did not effectively
           implement management control procedures established for the BRAC military
           consbuctioa planning, programming and budgeting process. As a resuls the
           management officials responsible for approving the BRAC military comtruction projects
           for progmmming and budget action did not have reasonable assurance that projects were
           complete and accurate.

           Recommend&on:        DoDIG recommends that the Secret&es of the Military
           DepWments and the Director, Defense Logistics Agency requim that heads of major
           commands and instalMons certify that BRAC MILCON projects are valid; and ensure
           that supporting data is accmate, cmrent, and 35-percent design complete or based on the
           parametric es&nation process when submitting project budget requests.

           DLA Comments:

           The Defense Logistics Agency @LA) cannot concur with the subject draft report.
           Although DLA partially concurs with the recommendation for Finding B. As noted in the
           individual findings below the draft report and its appendices contain numerous
           inaccuracies and make the following comments necessary.

           Finding A: hpport of Defense Base Realignment and Closure MiIitary
           Construction Projects

           Oventated Rqiremenb

           Defense hghtics     Agency Projects. The audit nport states‘The Defense Logistics
           Agency ovemstimwd non-administrative facility costs for BRAC MILCON projects
           related to the relocation and realignment of Defense Persomrel Sqxxt Center,
           Philadelphia, Pennsylvania, and its tenants, to the Naval Aviation Supply Office.
           Philadelphia The Def-        Logistics Agency did not &quately document the
           requitement to construct an expansion of the existing Aviation Supply Office compound
           fitness center...’

           BRAC guidelines allow for like facilities at gaining sites, similar to what is available at
           the losing site, and we programmed accordingly. However, due to subsequent lack of
           support for this fitness center expansion, we developed and submitted a new DD Form
           1391, ‘FY 1997 Military Construction Project w         for project ‘Convert and
           Reconfigure Facilities for Defense Personnel Support Center (DPSC),’ eliinating the
           fitness center expansion and reducing the budget estimates accordingly.
                                                Defense Logistics Agency Comments




Part II - Additional Information

Appendix C, Appendix D and Appendix E.

‘Ibese appendicesare very miskacliig    inthat they show only cost changes with no regard
as to whether a beneficial or negative change occurred. Tbe information, as showq does
not give any consideration to project scopes which were reduced by DLA e&neers as a
result of DLA management decisions, or mission changes implemented after the BRAC
MILCON projects were developed. They simply compare the budget submissions to the
COBRA model or the original DD Forms 1391. Projects which were reduced, or deleted
due to management diligence in revising the scopes, appear the same as projects which
had incmases.

Finding B. Management ControL for Defense Base Realignment and Closure
Military Conrtnmtion Funding Requests

Partially concur. DLA fully supports tbe need for ratifying that BRAC projects, like
MILCON projects, are valid, that supportmg data is accumte, current and that BRAC
projects are 35percent design complete or based on the parametric estimation process
when submitting project budget requests. This is what DLA requires from its
commanders when submitting projects.

DLA is a dynamic organization and mission realignments, reductions, operating
methodologies, and management decisions, implemented after BRAC decisions and
announcements, impacted BRAC projects. It is policy that the DLA facilities staff
aggressively monitors all mission changes and modify or cancel the projects as required
throughout the phning, pcogmmminganddesign phases.


Inkmd Management Control Weakness:
(x) Nonconcur.




Action Officer:     Thomas Karsl, DLSC-BIP, (703)767-3554, May I,1998
Review/Approval:    Frederick N. Baillie, Executive Director, Resource, Planning and
                     Performance Dimctomte (DLSC-B)
Coordination:        Anncll W. Williams. DDAI

DLA APPROVAL: hU2f2h-L
                        HENRY T: GLISSON
                        Lieutenant General, USA
                        Director, DLA




                                        63
Audit Team Members

The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, prepared this report

Paul J. Granetto
Wayne K. Million
Michael A. DiRenzo
Henry P. Ho&an
Bucceroni Mason
Hugh J. Elliott
Michelle Yantachka
